<html>
<title> - H.R. 2628, H.R. 2643 and H.RES. 261</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 2628, H.R. 2643 and H.RES. 261
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 7, 2002

                               __________

                           Serial No. 107-82
                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov




                       U. S. GOVERNMENT PRINTING OFFICE
77-545                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 7, 2002.................................     1

Statement of Members:
    Baird, Hon. Brian, a Representative in Congress from the 
      State of Washington........................................    10
        Prepared statement on H.R. 2643..........................    11
    Cramer, Hon. Robert ``Bud'', a Representative in Congress 
      from the State of Alabama..................................     4
        Prepared statement on H.R. 2628..........................     6
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia..........................................    12
        Prepared statement on H.Res. 261.........................    14
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Wu, Hon. David, a Representative in Congress from the State 
      of Oregon..................................................     8
        Prepared statement on H.R. 2643..........................     9

Statement of Witnesses:
    Borlaug, David, President, National Council of the Lewis and 
      Clark Bicentennial, Washburn, North Dakota.................    42
        Prepared statement on H.R. 2643..........................    43
    Conner, Jane, Retired Teacher and Stafford County Historian, 
      Stafford, Virginia.........................................    46
        Prepared statement on H.Res. 261.........................    47
    Gonce, Nancy, Executive Director, Music Preservation Society, 
      Florence, Alabama..........................................    26
        Prepared statement on H.R. 2628..........................    28
    Jones, Durand, Deputy Director, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    15
        Prepared statement on H.Res. 261.........................    16
        Prepared statement on H.R. 2628..........................    17
        Prepared statement on H.R. 2643..........................    18
    Rosenbaum, Alvin, CultureNet Consultant and Senior Visiting 
      Scholar, The George Washington University, Washington, D.C.    37
        Prepared statement on H.R. 2628..........................    38
    Scouten, Rex, Former White House Curator, Fairfax, Virginia..    44
        Prepared statement on H.Res. 261.........................    45










   LEGISLATIVE HEARING ON H.R. 2628, TO DIRECT THE SECRETARY OF THE 
   INTERIOR TO CONDUCT A STUDY OF THE SUITABILITY AND FEASIBILITY OF 
ESTABLISHING THE MUSCLE SHOALS NATIONAL HERITAGE AREA IN ALABAMA; H.R. 
2643, TO AUTHORIZE THE ACQUISITION OF ADDITIONAL LANDS FOR INCLUSION IN 
  THE FORT CLATSOP NATIONAL MEMORIAL IN THE STATE OF OREGON, AND FOR 
OTHER PURPOSES; AND H.RES. 261, RECOGNIZING THE HISTORICAL SIGNIFICANCE 
   OF THE AQUIA SANDSTONE QUARRIES OF GOVERNMENT ISLAND IN STAFFORD 
 COUNTY, VIRGINIA, FOR THEIR CONTRIBUTIONS TO THE CONSTRUCTION OF THE 
                     CAPITAL OF THE UNITED STATES.

                              ----------                              


                       Thursday, February 7, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE GEORGE P. RADANOVICH, CHAIRMAN, 
  SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

    Mr. Radanovich. Good morning and welcome to the 
Subcommittee on National Parks Recreation and Public Lands. We 
are hearing regarding 3 bills today regarding H.R. 2628, H.R. 
2643, and H.Res. 261. Good morning to everybody. Thank you for 
being here. I am looking forward to everybody's testimony on 
these bills.
    The first bill that we are going to consider, H.R. 2628, 
was introduced by Congressman Bud Cramer, and directs the 
Secretary of the Interior to study the suitability and 
feasibility of designating the city of Muscle Shoals and the 
surrounding counties of northwest Alabama as a national 
heritage area. The area would commemorate the birthplace of the 
Tennessee Valley Authority, historic trails and Civil War sites 
and other areas of historical significance.
    The next bill is H.R. 2643, introduced by Congressman David 
Wu, who is here with us today as well, and it would expand the 
boundary of Fort Clatsop National Memorial while also 
facilitating the construction of a trail to the Pacific Ocean. 
For quite some time this bill's major obstacle was the question 
of 300 acres of private timberland owned by the Willamette 
Industries, which would be included in the boundary. Both 
parties have come to an agreement that based on questions of 
title, the best solution would be a friendly condemnation.
    Between the time that this hearing was scheduled and now, 
Weyerhauser has moved to acquire Willamette Industries, and 
while it has been our understanding that this transaction would 
not alter the agreement representatives, of which Willamette 
declined an invitation to testify at in hearing because they 
felt it would be inappropriate to characterize Weyerhauser's 
position regarding the agreement until the acquisition is 
finalized later this week. That is one of the longer sentences 
I have read. When that acquisition is finalized, we will be 
interested to know if there has been any change in this 
position.
    And finally, we will hear testimony regarding House 
Resolution 261 introduced by Congresswoman Jo Ann Davis. This 
resolution will commemorate the historical significance of the 
Aquia sandstone quarries at Government Island in Stafford 
County, Virginia, which was selected by our first, President 
George Washington, to be used for the construction of the U.S. 
Capitol building. I look forward to hearing the testimony 
offered today. At this time, I would like to ask unanimous 
consent that Congresswoman Davis, Congressman Wu, and 
Congressman Baird be permitted to sit on the dais, following 
their statements if they choose to do so also. Without 
objection, so ordered.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
  on National Parks, Recreation, and Public Lands, on H.R. 2628, H.R. 
                            2643, H.Res. 261

    Good morning and welcome to the hearing today. The Subcommittee 
will come to order. This morning, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on two bills, H.R. 
2628, H.R. 2643, and a resolution, H.Res. 261.
    The first bill, H.R. 2628, introduced by Congressman Bud Cramer, 
directs the Secretary of the Interior to study the suitability and 
feasibility of designating the City of Muscle Shoals and the 
surrounding counties of northwest Alabama as a national heritage area. 
The area would commemorate the birthplace of the Tennessee Valley 
Authority, historic trails, civil war sites, and other areas of 
historical significance.
    The next bill, H.R. 2643, introduced by Congressman David Wu would 
expand the boundary of Fort Clatsop National Memorial while also 
facilitating the construction of a trail to the Pacific Ocean. For 
quite some time this bill's major obstacle was the question of 300 
acres of private timberland owned by Willamette Industries which would 
be included in the boundary. Both parties had come to an agreement 
that, based upon questions of title, the best solution would be 
friendly condemnation. Between the time that this hearing was scheduled 
and now, Weyerhauser has moved to acquire Willamette Industries. While 
it had been our understanding that this transaction would not alter the 
agreement, representatives of Willamette declined an invitation to 
testify at this hearing because they felt it would be inappropriate to 
characterize Weyerhauser's position regarding the agreement until the 
acquisition is finalized later next week. When that acquisition is 
finalized we will be interested to know if there has been any change in 
position.
    And finally, we will hear testimony regarding House Resolution 261, 
introduced by Congresswoman Jo Ann Davis. This resolution would 
commemorate the historical significance of the Aquia sandstone quarries 
at Government Island in Stafford County, Virginia which were selected 
by our first president George Washington to be used for the 
construction of the U.S. Capitol building.
    I look forward to hearing the testimony offered today. At this 
time, I would like to ask unanimous consent that Congresswoman Davis, 
Congressman Wu, and Congressman Baird be permitted to sit on the dais 
following their statements, if they choose to do so. Without objection 
[PAUSE], so ordered.
    Once again, I appreciate the witnesses being here to testify today 
and I now turn the time over to the ranking member, Mrs. Christensen 
for an opening statement.
                                 ______
                                 
    Mr. Radanovich. Once again, I appreciate the witnesses 
being here to testify today, and I now turn my time over to the 
ranking member, Mrs. Christensen, for an opening statement.
    Mrs. Christensen. Thank you, Mr. Chairman, and I want to 
join you in welcoming our colleagues this morning. As you 
indicated today, we are going to receive testimony in a varied 
group of bills. House Resolution 261, which was introduced by 
Congresswoman Jo Ann Davis, recognizes the historical 
significance of the Aquia sandstone quarries of Government 
Island in Stafford County, Virginia, for their contributions 
for the construction of the Capitol of the United States and 
commend the Stafford County commissioners and local residents 
for their efforts to preserve those quarries.
    Stone from these particular quarries, which date back to 
the late 17th century, were then chosen by President George 
Washington for use at Mount Vernon as well as construction of 
the U.S. Capitol, the White House, the original Treasury 
Building, the Patent Office, and the earliest locks and bridges 
of the C&O Canal. Over time, the quarries have been exhausted 
and the site has since been through a number of private hands 
and has entered in and out of public ownership.
    We are eager to hear from Congresswoman Davis and our other 
witnesses regarding the latest efforts by Stafford County to 
preserve the interesting history of this area. A second bill, 
H.R. 2628, introduced by our other colleague, Representative 
Cramer, would direct the Secretary of the Interior to do a 
national heritage area study of the Muscle Shoals area of 
northern Alabama. Evidently the Muscle Shoals area has a long 
history of industry, transportation, and music among other 
things. I am sure that our witnesses here today, including 
Representative Cramer will detail and expand upon that history 
for the Subcommittee. Finally the Fort Clatsop National 
Memorial, located in the far northwestern corner of Oregon, 
marks the area where Meriwether Lewis, William Clark and their 
Corps of Discovery spent the winter months of 1805 to 1806.
    Given the critical importance of the Louisiana Purchase and 
the Lewis and Clark Expedition in American history, the 
significance of this turnaround camp site is indisputable. 
Lewis and Clark turned the fort over to the Clatsop tribe on 
their departure, but it soon fell into disrepair and 
unfortunately farming and clear cutting destroyed the remains 
of the fort. However, through the efforts of the Oregon 
Historical Society and later the National Park Service, the 
fort has been reconstructed based on William Clark's original 
drawings and the surrounding area is slowly being returned to 
the way it might have looked when the Corps of Discovery camped 
there.
    The last one, H.R. 2643 sponsored by our colleague, 
Representative Wu, would continue the process of restoring and 
preserving this fascinating memorial by allowing several 
critical areas to be included within the memorial's boundaries. 
We welcome representative Wu's testimony today as well as input 
from the two original co-sponsors of the bill, Representative 
Baird and our colleague on the Subcommittee Representative 
Souder. We appreciate the time and efforts of all of our 
witnesses and welcome your input on the bills before the 
Subcommittee this morning. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen. And Mr. 
Cramer, please forgive me for not including you on the list to 
join us on the dais after your presentation, please feel 
welcomed to do so.
    Mr. Cramer. Thank you.
    Mr. Radanovich. And if you would like to begin with your 
testimony that would be terrific.

 STATEMENT OF THE HON. ROBERT ``BUD'' CRAMER, A REPRESENTATIVE 
       IN CONGRESS FROM THE STATE OF ALABAMA (H.R. 2628)

    Mr. Cramer. I would be happy to, Mr. Chairman. Thank you. 
On behalf of my community there in north Alabama, we appreciate 
this opportunity. We look forward to it. Madam ranking member, 
we appreciate your interest and enthusiasm as well. We have a 
map over here for your benefit and on that map, the big gray 
square is the area of my congressional district that I want to 
talk about today. That is called the Shoals area.
    Muscle Shoals is, in fact, a city, but it is really an area 
in northwest Alabama and it's America's best kept secret. The 
line going through there is the Tennessee River, and on the 
western edge of that gray square is the State of Mississippi 
and then above it is the State of Tennessee. So we occupy the 
northwest corner of Alabama. The gray dots represent National 
Park Service units and national historic landmark sites. So you 
can see that we have a number of those units and sites around 
us. Now, the river has culturally and geographically defined 
our area. It's a fascinating history.
    TVA was born in Muscle Shoals, and we frankly consider that 
we are the home--it should be the home of TVA as well. I have a 
set of letters here from the community that I would like to 
make a part of this record because my effort is supported by 
many across the state, many across the area as well. Our 
colleagues, Roger Wicker, who represents a corner of 
Mississippi to my west, Robert Aderholt is to the south of me. 
They are both co-sponsors of this bill as well.
    The Shoals is a collection of communities like any other 
area in that geographic square would be. There are a number of 
cities in there, a number of communities in there. When you 
talk about Florence, Alabama, you're talking about its native 
W. C. Handy, who is referred to as the father of the blues. We 
have a remarkable blues festival down there in the whole area 
that brings thousands of people from all over the country. If 
you are talking about another city there, Tuscumbia, Alabama, 
you are talking about the birth place of Helen Keller, of 
course, who has inspired all of us.
    If you talk about that same area as well, you are talking 
about the home of Jessie Owens, who has demonstrated through 
his courage and his brilliance what youth can model after, and 
what ``say no'' can mean and the inspiration that he gave us.
    So we are excited about this opportunity to tell you about 
the history of our community. The river was dammed by TVA. That 
damming of the river enabled us to enjoy much more economic 
prosperity but it never robbed us of what the river meant to us 
in terms of its inspiration and the creativity that it gave us. 
I have with me today Nancy Gonce and Alvin Rosenbaum. They will 
be testifying also on a later panel.
    Nancy Gonce is renown in our community as a person who can 
accomplish anything she takes on. She has been my role model 
since I have been in Congress and she has been my partner since 
I have been here. Alvin Rosenbaum as well. His family donated a 
Frank Lloyd Wright house, which is a remarkable museum, in the 
Florence area. So both of those individuals come from the area 
and they know culturally and historically about the area and 
will offer you that information as well.
    The letters that I am offering you here today speak from 
the Alabama Historical Commission, Alabama State Council on the 
Arts as well as the business community, the cultural community 
of that whole area of Alabama and Mississippi as well. We are 
fiercely proud of what that area represents and think this 
gives the National Park Service an opportunity to study the 
area and enter us on its record of accomplishment as well. 
Another line that you can see on the map there is the Natchez 
Trace Parkway, and that goes right through the edge of this 
particular area as well. So we live and breathe the history 
that is around us and think that what we are trying to do here 
today will allow us to fall right in line with the cataloguing 
and study process that needs to occur.
    When I first came to Congress, a few years after that I met 
Bill Ferris. Bill Ferris is from Jackson, Mississippi. He 
eventually became NEH director. He is a blues fan, studies the 
blues, and he quickly encouraged me to make sure with the 
history of our area, and the W.C. Handy birthplace there, that 
we had this opportunity to catalogue and study what went on 
there.
    So I am in a way following his advice in pursuing this. So 
thank you, Mr. Chairman. Thank you Madam Ranking Member. The 
Muscle Shoals Heritage Study Act of 2001 is certainly worthy of 
your consideration. Thank you.
    Mr. Radanovich. Thank you very much Mr. Cramer and I look 
forward to the testimony from your two witnesses which will be 
on the third panel coming up today.
    [The prepared statement of Mr. Cramer follows:]

  Statement of The Honorable Bud Cramer, a Representative in Congress 
                from the State of Alabama, on H.R. 2628

    Mr. Chairman, Madame Ranking Member, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you today 
in support of my legislation, H.R. 2628, the ``Muscle Shoals National 
Heritage Study Act of 2001.''
    As the map indicates, the area that we in North Alabama generally 
refer to as the Shoals, is located in the Northwest corner of Alabama. 
The Shoals has a total population of approximately 209,000 people 
spread across six major municipalities--Florence, Sheffield, Tuscumbia, 
Muscle Shoals, Russellville, and Moulton--in two full counties and 
portions of two others. In addition, the map shows some of the numerous 
National Park Service units and National Historic Landmark Sites in or 
near the Shoals, thereby, giving some indication of the historical 
importance of the region.
    In general, mine is a District that is geographically and 
culturally defined by the Tennessee River.
    This is particularly true for the Shoals. It is the river that 
defines and anchors us, gives us sustenance, sparks our creativity, and 
centers our lives. Our history, therefore, is intertwined with that of 
the Tennessee River. This history runs deep and speaks directly to what 
it means to be an American. The earliest days of our history can be 
tracked to when native Americans once freely roamed the river's banks 
to those dark days centuries later when they were forced to march pass 
its somber banks during the Trail of Tears.
    It can be found in the Civil War when the river ran red as brother 
fought brother in a struggle that would determine the fate of our 
union.
    It can be seen at that moment early the 20th century when the river 
was tamed by the massive Wilson Dam that foretold the advent of public 
power as manifested by the Tennessee Valley Authority.
    Moreover, the richness of the Shoals' history is revealed by the 
contributions made to American History by the sons and daughters of the 
Shoals. Whether you talk about Florence native W.C. Handy--often called 
the ``Father of the Blues'' and the role he played in developing this 
most uniquely American music. Or whether you're in Tuscumbia visiting 
the birthplace of Helen Keller--one of this century's most outstanding 
examples of an individual overcoming tremendous personal disabilities 
through determination, perseverance and strength of character. Or 
whether you talk about North Alabama native, Jesse Owens who through 
his athletic grace transcended sports and shook the conscience of the 
world by discrediting Hitler's theory of racial superiority. The Shoals 
has a story to tell that, I believe, is as central to the story of 
America as can be told by any other region in the country.
    My bill, H.R. 2628, the ``Muscle Shoals National Heritage Study Act 
of 2001'represents my attempt to get this story told. The Subcommittee 
should also know that while the bill primarily focuses on my 
Congressional District, it does include language allowing for the scope 
of the feasibility study to include areas that ``are adjacent to or in 
the vicinity of'' the Shoals area. Consequently, I'm pleased to report 
to the Subcommittee that both Representatives Robert Aderholt, whose 
district is just south of my Congressional District, and Roger Wicker, 
whose district is just west of my Congressional District in 
Mississippi, have signed onto my bill as co-sponsors.
    In addition, H.R. 2628, represents the culmination of several years 
of grassroots efforts on the part of the business, academic, and civic 
leadership of Northwest Alabama to categorize, preserve, and showcase 
the rich natural, cultural, and historic resources of the Muscle Shoals 
Area. To demonstrate the extraordinary level of local support this bill 
has generated, I would like to submit along my testimony, the two dozen 
or so support letters I've received from a wide spectrum of the 
communities' local leadership. Included among these are letters of 
support from Senator Bobby Denton, and Representative Nelson Starkey, 
both of whom represent parts of the Shoals communities in the Alabama 
State Assembly. I've also included letters of support from the Alabama 
Historical Commission, the Alabama State Council on the Arts, as well 
as from the Shoals Chamber of Commerce, the Lawrence County Chamber of 
Commerce, the Tennessee Valley Art Association, and the W.C. Handy 
Music Festival.
    These letters demonstrate what I've found as I've talked to people 
throughout the Shoals about this bill--and that is that we in North 
Alabama are fiercely proud of our history and we believe that our 
history, with all of its many different tales of tragedy and 
redemption, offers a glimpse into the American spirit. H.R. 2628 gives 
us the opportunity to share this history with the rest of the country 
and the world.
    As the legislative process moves forward, I hope you will come to 
this same conclusion. Thank you Mr. Chairman, Madame Ranking Member and 
Members of the Subcommittee for allowing me to offer testimony in 
support of my legislation, the ``Muscle Shoals National Heritage Study 
Act of 2001.''
    I look forward to working with each of you in the coming months to 
move this bill through the legislative process. I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    [A map attached to Mr. Cramer's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T7545.001
    
    Mr. Radanovich. Congressman Wu from Oregon, welcome and, 
Dave, give us your testimony.

 STATEMENT OF THE HON. DAVID WU, A REPRESENTATIVE IN CONGRESS 
              FROM THE STATE OF OREGON (H.R. 2643)

    Mr. Wu. Thank you very much, Mr. Chairman. It is a pleasure 
to be you today and thank you for holding this hearing on the 
bill which Mr. Souder, Mr. Baird and I have submitted, H.R. 
2643. Approximately 200 years ago from a small community just 
south of here, Ivy, Virginia, a young man left his home 
plantation and after brief stops in Washington, D.C., and 
Philadelphia for career and other reasons for those stops, he 
was commissioned to cross this country and after 8,000 miles 
and 28 months later, they forever expanded the American concept 
of this Nation and what it is to be an American. I will not 
walk you there all 8,000 miles or 28 months of the journey and 
I will just briefly summarize my written statement which I will 
submit for the record.
    After leaving the east coast, Meriwether Lewis picked up 
William Clark along the way and passing by near to St. Louis, 
crossed the continent and forever changed the American physical 
and psychological and mental landscape. And I think that by 
walking, riding, boating and canoeing across this continent, 
they not only exemplified a great exploration for their era, 
but continued to teach us valuable lessons in our day.
    Most relevant to this body, they originally appropriated 
$2,500. They spent $38,000 instead on their expedition. 
Sometimes exploration takes a little bit longer and costs a 
little bit more than one expects. Every time that I fly back 
and forth between my home in Oregon and here, I put it in 
perspective that it took some folks more than 2 years to go the 
same distance, and they had to walk and use other forms of 
transportation much more troublesome than the ones to which we 
have access today.
    The principal purposes for which the expedition set forth 
to find a water route to the west coast, to bind the Indian 
Nations together in forming a trading system in the great west. 
Those were not realized, one from a lack of cultural 
understanding and the other from a lack of understanding from 
the geography. However, this mission, this expedition, set 
standards for natural science which stand to this day. 
Meriwether Lewis was not a trained naturalist; yet his notes to 
this day can teach us much about western geography and western 
wildlife and plants. Their expedition truly expanded this 
Nation from sea to shining sea.
    And finally, I think that it is most important to note that 
the word ``can't,'' the word ``can't'' is not a part of the 
American vocabulary, and I think that the Lewis and Clark 
expedition was a very, very important step in taking the word 
``can't'' out of our national lexicon. It is important that we 
commemorate this expedition. We are coming up on the 200th 
anniversary and we are looking to a great celebration of that 
across this Nation and one of those celebrations will be in 
Clatsop County at the Fort Clatsop Memorial. This bill will 
expand the Memorial from 130 acres to 1,500 acres and bring in 
some of the coastal territory which Lewis and Clark explored 
and also was an important part of their destination.
    All of the property is going to be acquired in the manner 
which the current owners requested that the Federal Government 
acquire from them, both the private property owners, individual 
property owners, and the corporate property owners. We look 
forward to working with the Committee and you, Mr. Chairman, to 
pass this bill; and Mr. Baird will address aspects of this bill 
which will further appropriately commemorate the expedition and 
their accomplishments on the now Washington side of the river.
    Mr. Radanovich. Thank you Mr. Wu.
    [The prepared statement of Mr. Wu follows:]

Statement of The Honorable David Wu, a Representative in Congress from 
                          the State of Oregon

    Mr. Chairman, I want to begin by extending my sincere thanks to you 
for holding a hearing today on this important bill.
    H.R. 2643, the Fort Clatsop National Memorial Expansion Act, would 
authorize the National Park Service to expand the boundaries of Fort 
Clatsop National Memorial in accordance with the recommendations of the 
1995 National Parks Service General Management Plan.
    The National Memorial System is the commemorative division of 
America's National Parks System. Our 28 National Memorials are reserved 
to commemorate the lives of great Americans, and the great sacrifices 
and heroic deeds of our countrymen.
    The Lincoln and Jefferson Memorials honor our greatest leaders. The 
Wright Brothers Memorial commemorates American ingenuity. The Vietnam 
Veterans Memorial and the USS Arizona Memorial remind us of the 
sacrifices our military veterans have made on America's behalf.
    Mr. Chairman, Fort Clatsop National Memorial is a monument to the 
spirit of American exploration and discovery and reminds us all of the 
rewards that come from determination and perseverance.
    Located near Astoria, Oregon, Fort Clatsop marks the spot where the 
Corps of Discovery, commanded by Meriwether Lewis and William Clark, 
spent the winter of 1805-1806. The Fort was a 50-foot square structure 
located in a beautiful forest of Spruce, Douglas fir, and Western Red 
Cedar. It provided shelter for Lewis and Clark and 31 of their 
companions, including Sacagawea and her infant son, for 106 continuous 
days while they waited for the snows of the Rockies to melt.
    Fort Clatsop was the first army outpost west of the Rockies and it 
is the only unit of the National Parks System solely dedicated to the 
Lewis and Clark expedition.
    The persistent rainfall of the Pacific Northwest caused the 
original Fort to rot away by the mid nineteenth century. In 1955, to 
coincide with the sesquicentennial celebration of the expedition, 
Oregonians built a near-exact replica of the Fort out of logs donated 
by a local timber company.
    In 1958 Congress added Fort Clatsop to the National Park System. In 
1978 Congress added to the Memorial a site on the Pacific coast where 
members of the expedition spent the winter making salt through the 
laborious process of boiling off sea water. With the addition of the 
salt works, Fort Clatsop had effectively reached its congressionally 
authorized acreage limit.
    By raising the acreage limit from 130 to 1,500 acres, H.R. 2643 
would allow the Park Service to add land between the replica of the 
Fort and the Pacific Ocean. This area includes the historic Lewis and 
Clark trail allowing visitors to the Memorial to retrace the historic 
steps of Lewis and Clark from the Fort to the ocean.
    As the committee is well aware, Mr. Chairman, we are quickly 
approaching the celebration of the Lewis and Clark Bicentennial. During 
the bicentennial, the National Parks Service estimates that well over 
one million people will visit Fort Clatsop. In fact, the Park has 
already begun to notice an increase in its visitation.
    This bill is strongly supported by the State of Oregon, Clatsop 
County, city governments in the region, nearby tribal authorities, 
state and local Lewis and Clark bicentennial celebration Organizations, 
and the National Council of the Lewis and Clark Bicentennial. Fort 
Clatsop will be the centerpiece of the Oregon Lewis and Clark 
bicentennial celebration and will be the site of one of the five 
national signature events.
    This bill is also supported by Willamette Industries, the principal 
landowner, which worked closely with the National parks Service to 
design the expanded boundary. An identical bill sponsored by Senator 
Wyden passed the Senate by unanimous consent this past October.
    When President Jefferson, in 1803, laid out a challenge to a group 
of brave men to search for a navigable water route to the Pacific 
Ocean, he set a precedent for the great American expedition into the 
unknown. The clearest echo of Jefferson's challenge came when President 
Kennedy set a national goal to put a man on the moon within a decade.
    As America ventures further and is lifted by the spark of 
discovery, today and in years to come, it behooves our nation to look 
to those who have paved the way before us. Whether pushing the 
frontiers of freedom here on earth, the frontiers of exploration in the 
heavens, or the frontiers of knowledge everywhere there is ignorance, 
the story of the Lewis and Clark expedition is one that demonstrates 
the power of what is possible when a people, and a nation, have the 
curiosity to ask, ``why?''; the sense of unbounded possibility to ask, 
``why not?''; and the resolve to remake the world.
    Again, I thank the Chair for holding this hearing today, and I ask 
the committee to support this bill, which will help to inspire our 
country with this great American story.
                                 ______
                                 
    Mr. Radanovich. And good morning, Mr. Baird, if you would 
go ahead and proceed that will be fine.

STATEMENT OF THE HON. BRIAN BAIRD, A REPRESENTATIVE IN CONGRESS 
            FROM THE STATE OF WASHINGTON (H.R. 2643)

    Mr. Baird. Mr. Chairman, I would like to begin by thanking 
you and Ranking Member Christensen for holding this important 
hearing, and to thank my good friend and colleague, Mr. Wu, for 
his work not only on the Clatsop side, but to include sites 
within Washington State in this commemoration. I am also very 
grateful for Committee Member Souder, who I am glad to see he 
is joining us. He has been a tremendous help on this. And for 
Don Striker, who is here to testify today. He is superintendent 
of Fort Clatsop.
    As Congressman Wu identified, the bicentennial of Lewis and 
Clark is virtually upon us. In 2003, they started their journey 
and they reached the Pacific coast in 2005. I have with me, if 
I may with your indulgence, show you a couple of maps to 
illustrate the area we are talking about and its importance. I 
would like to have my staff put that up there--
    Mr. Radanovich. Sure.
    Mr. Baird. It is easier for me if I go around. Is that all 
right--
    Mr. Radanovich. No problem. Do it how you want to.
    If it is OK with you.
    Mr. Baird. What I am handing you is the actual map that 
Lewis and Clark drew of the area we are talking about, that is 
actually from their journals. You will see from the Washington 
side of the river it is well-documented in their journals.
    Mr. Radanovich. Mr. Souder was there during that time.
    Mr. Baird. What happened was Lewis and Clark basically 
traveled, when they reached the Columbia River, down river to 
on the Washington side. Upon reaching the end of their journey, 
they were in terrible shape. They had a difficult decision. 
They had opened to find a ship. Here is the area we are talking 
about. They traveled down the Washington State side and they 
were hoping to find a ship to take them back but there were 
none. They were going to have to winter over. The question is 
where do we winter over?
    At a very important site, they took an important vote, 
stateside Washington here. They took a vote and what is so 
remarkable about the vote is that 100 years before suffrage, 60 
years before emancipation, both Sacagawea and York, who was a 
black slave of Clark's, both were included in the vote and it 
is recorded in their journals. They took a vote and they said 
well, we are going to eventually spend the winter over on what 
is now the Oregon side over in what is today the Fort Clatsop 
site, but the important point of this legislation is it does 
two things: One, it expands Fort Clatsop, which is in 
Congressman Wu's district; but, two, it includes the Washington 
State side as a study to see if possible inclusion of this side 
of the river for a national historic side.
    Mr. Wu. Let the record show that they voted to come to 
Oregon.
    Mr. Baird. Legend has it that the Chinook Indians wanted 
them out of Washington over on the Oregon side.
    The important point is this: To really appreciate the 
historical value of this journey, and frankly I believe it to 
be, perhaps apart from the Apollo moon landing, the greatest 
journey in American history. To appreciate it you need to 
travel to both sides of the river. It is critical for 
historical reasons to get the flavor to stand there on the 
beautiful headlands above the ocean and imagine being Lewis and 
Clark looking out over that vast ocean and remembering the 
journey, you have just been there, and saying my goodness, 
there is no ship there, we have got to spend the winter and 
then we have to go back.
    Only by integrating those two sites can we fully grasp the 
history of this mission, only by honoring Station Camp and Fort 
Canby can the public get a full richness of the teamwork and 
the togetherness that enabled them to succeed. So without 
taking more time because I know we have a vote, I am very, very 
grateful.
    And let me just finally say this: The time really is urgent 
on this legislation and on this recognition. The Lewis and 
Clark commemoration is expected to attract quite literally 
millions of visitors from around the world in this region and 
we need to have in place the mechanisms and the facilities to 
entertain those folks and give them the full flavor of this 
great adventure. I yield back my time and--
    Mr. Radanovich. Good. Thank you. And we will have some 
questions regarding the map too but we will wait until we get 
done with this panel and on to the next ones.
    [The prepared statement of Mr. Baird follows:]

 Statement of The Honorable Brian Baird, a Representative in Congress 
                 from the Third District of Washington

    First, I would like to thank the Chairman of the Subcommittee, Mr. 
Radanovich, for holding a hearing on this important piece of 
legislation. I would also like to thank my colleague from Oregon, David 
Wu, for working to ensure that Southwest Washington's role in the Lewis 
and Clark commemoration can be recognized by the National Park Service 
and enjoyed by all Americans. I am also grateful to Congressman Mark 
Souder, for his strong support of the bill.
    The Bicentennial Commemoration of the Lewis and Clark expedition is 
only one year away. In 2003, communities across the nation will begin 
commemorating the Corps of Discovery and the promise that they brought 
back. It is my hope that during this commemoration, Americans will 
visit important stops along this journey of discovery in the Third 
Congressional District, including Station Camp and Fort Canby State 
Park.
    On November 15, 1805, William Clark stopped at Station Camp, 
sometimes referred to as Megler's Rest, and proclaimed, ``I am in full 
view of the ocean.'' It was at this historic site that Clark penned his 
famous map indicating that the Corps had completed one of Thomas 
Jefferson's directives--to reach the Pacific Ocean. This is also the 
site of the historic vote taken by Captains Meriwether Lewis and 
William Clark to determine where the Corps would camp for the winter. 
Although the year was 1805, nearly 60 years before the emancipation of 
the slaves and a century before women were given the privilege of 
voting, Lewis and Clark called for a vote by the entire Corps. Both 
Sacagawea, the Shoshone interpreter, and York, Clark's slave, were 
allowed an equal vote with all other members of the Corps. This 
historic moment occurred at Station Camp. It is indicative of the 
forward thinking employed by the Captains throughout the journey which 
led to their incredible level of success.
    Today, I welcome the opportunity to discuss the importance of this 
legislation, which seeks to expand the Ft. Clatsop National Memorial, 
the only unit in the National Park System that is solely dedicated to 
the amazing journey of Lewis and Clark. Of great importance to my 
congressional district, the legislation calls for the Secretary of the 
Interior to study the inclusion of the ``Station Camp'' site and Fort 
Canby within the Fort Clatsop National Memorial.
    Although ``Station Camp'' is considered the end of the voyage, it 
is also true that the Northwesternmost point of exploration of the 
Corps of Discovery was their trip to Cape Disappointment, now embedded 
within Fort Canby State Park. Here, the party had direct contact with 
the Pacific, which Clark described in his memoir.
    The legislation calls for the National Park Service to work 
collaboratively with the States of Washington and Oregon and Indian 
tribes on the expansion of Fort Clatsop to study including these new 
sites before the start of the bicentennial of the Lewis and Clark 
Expedition, planned to take place from 2003 to 2006. Companion 
legislation has already passed the Senate by unanimous consent and the 
bill enjoys broad support from the Washington and Oregon congressional 
delegations as well as from the Washington State Historical Society's 
Lewis and Clark bicentennial project.
    I appreciate your careful consideration of this request for 
inclusion of these important historical sites within the Fort Clatsop 
National Memorial and I look forward to answering any questions from 
members of the Committee.
                                 ______
                                 
    Mr. Radanovich. Good morning Mrs. Davis and welcome and we 
have got good time to take your statement as well and then 
afterwards we will leave for our vote and then please join us 
on the dais when we get back for the rest of the hearing. Good 
morning.

    STATEMENT OF THE HON. JO ANN DAVIS, A REPRESENTATIVE IN 
        CONGRESS FROM THE STATE OF VIRGINIA (H.RES. 261)

    Mrs. Davis. Thank you. Mr. Chairman, ranking member and 
members of the Committee, I want to thank you for taking up 
House Res. 261, commemorating the contributions of Government 
Island. As Virginia's member of the First Congressional 
District to the U.S. House of Representatives, I am very proud 
of the many historically significant contributions the great 
Commonwealth has offered our Nation.
    Virginia has given America eight of its distinguished men 
to the office of presidency, and I might add, three of the 
first five were born in my district, which is why congressman 
Bateman referred to it as America's first district, and 
countless other elected officials, military heroes and active 
citizens, to the cause of freedom and democracy.
    As our forefathers struggled to create a Nation through a 
declaration of independence and an enduring revolution, they 
sought to create symbols to express the permanence of their 
new-found freedom. Led by First Congressional District and 
Virginia native George Washington, the Founding Fathers began 
to plan a city that would dignify the grandeur of the new 
United States of America. They chose the lands situated 
geographically centered in the new Nation up the Potomac River 
and to the top of what was known as Jenkin's Hill, a place 
Pierre Charles L'Enfant, the city's planner, called a pedestal 
waiting for a monument.
    I could not agree more. Our Capitol has survived over 200 
years through the War of 1812 and the Civil War. More recently, 
the building was a suspected target, as you all know, of the 
recent horrific terrorist attacks on our country. This building 
has expanded and matured into the great symbol of America. The 
freedoms we hold so dear and recent events have only solidified 
my deep fondness for our Capitol and what it represents. 
Although little known, the first section of the north wing of 
the Capitol and the White House were constructed of Aquia 
sandstone from Government Island in the Aquia Creek in Stafford 
County, Virginia, another proud Virginia contribution.
    I have introduced, as you know, Res. 261 in remembrance of 
this ``jewel of the First'' and to mark the accomplishments of 
the Stafford Board of Supervisors and Stafford citizens for 
their good work in preserving this national treasure. House 
Res. 261 commemorates Government Island and its contributions 
to the early construction of our Nation's Capitol and the new 
Capital City and seems well-placed in this time of overwhelming 
patriotism and national pride. It seems only fitting to 
recognize the contributions of the Aquia quarries to our 
Nation. After all, the placing of our Capitol building's 
cornerstone was, in many respects, symbolic of in our Nation's 
beginning over 200 years ago.
    I would like to thank the entire Virginia Delegation for 
joining me as co-sponsors of this resolution, and additionally, 
I would like to thank two individuals who join me today to 
testify on behalf of the resolution. They, along with 
Stafford's Commission on Government Island, have worked 
tirelessly for this worthy cause. First Rex Scouten, who spent 
nearly 50 years at the White House serving Presidents from 
Truman to Clinton. Rex began his career at the White House as a 
Secret Service agent, and after 10 years of service, became the 
assistant usher.
    Rex was later promoted to chief usher and then finally 
named as White House curator. A very distinguished career he 
should be commended on, but thankfully for Government Island, 
it didn't stop there. Rex was tapped to serve on Stafford's 
Committee on Government Island, and I am grateful for his 
dedication to our local and national treasure.
    Second, Jane Conner, a long-time Stafford teacher and 
resident. Jane--and I hope she is here. She was tied up in 
traffic. Jane has published several articles in the definitive 
history of Government Island. She is also a former president of 
the Stafford County Historical Society and a member of the 
Stafford Historical Committee. Mr. Donald Kennon, historian of 
the U.S. Historical Society called this, in quotes, an 
excellent resolution, and he continued in quotes ``I fully 
support it.''
    It is my hope that you might see this resolution in the 
same light, Mr. Chairman, and members of the Subcommittee, and 
I encourage you to support this important resolution, and I 
thank you for bringing up this matter today. Thank you, Mr. 
Chairman.
    Mr. Radanovich. Thank you very much, Mrs. Davis. And with 
that, we are going to recess briefly, go take a vote and 
everybody is welcome to join us back here. We will continue 
with the hearing.
    [The prepared statement of Jo Ann Davis follows:]

 Statement of The Honorable Jo Ann Davis, a Representative in Congress 
                       from the State of Virginia

    Mr. Chairman, Ranking Member and Members of the Committee, I thank 
you for taking up House Resolution 261 commemorating the contributions 
of Government Island.
    As Virginia's Member of the First Congressional District to the 
United States House of Representatives I am very proud of the many 
historically significant contributions the great Commonwealth has 
offered our Nation. Virginia has given America eight of its 
distinguished men to the office of the Presidency and countless other 
elected officials, military heroes, and active citizens to the cause of 
freedom and democracy.
    As our forefathers struggled to create a Nation through a 
Declaration of Independence and an enduring Revolution, they sought to 
create symbols to express the permanence of their new found freedom. 
Led by First Congressional District and Virginia native George 
Washington, the Founding Fathers began to plan a city that would 
dignify the grandeur of the new United States of America. They chose 
the land situated geographically centered in the new nation, up the 
Potomac River and to the top of what was known as Jenkin's Hill, a 
place Pierre Charles L'Enfant, the city's planner, called ``a pedestal 
waiting for a monument.''
    I could not agree more. Our Capitol has survived over two hundred 
years through the War of 1812 and the Civil War. More recently, the 
building was a suspected target of the recent horrific terrorist 
attacks on our country. This building has expanded and matured into the 
great symbol of America. The freedoms we hold so dear, and recent 
events, have only solidified my deep fondness for our Capitol and what 
it represents.
    Although little known, the first section of the North wing of the 
Capitol and the White House were constructed of Aquia Sandstone from 
Government Island in the Aquia Creek in Stafford County, Virginia: 
another proud Virginia contribution.
    I have introduced, as you know, House Resolution 261 in remembrance 
of this ``jewel of the First'' and to mark the accomplishments of the 
Stafford Board of Supervisors, and Stafford's citizens, for their good 
work in preserving this national treasure.
    H.Res. 261 commemorates Government Island and its contributions to 
the early construction of our Nation's Capitol and the new Capital 
City, and seems well placed in this time of overwhelming patriotism and 
national pride. It seems only fitting to recognize the contributions of 
the Aquia quarries to our Nation. After all, the placing of our Capitol 
Building's cornerstone was in many respects symbolic of our Nation's 
beginning over 200 years ago.
    I would like to thank the entire Virginia Delegation for joining me 
as co-sponsors of this resolution. Additionally, I would like to thank 
two individuals who join me today to testify on behalf of this 
resolution; they, along with Stafford's Commission on Government 
Island, have worked tirelessly for this worthy cause.
    First, Rex Scouten, who spent nearly fifty years at the White 
House, serving Presidents from Truman to Clinton. Rex began his career 
at the White House as a Secret Service Agent and after ten years of 
service became the Assistant Usher. Rex was later promoted to Chief 
Usher and then finally named as White House Curator. A very 
distinguished career he should be commended on, but thankfully for 
Government Island it did not stop there. Rex was tapped to serve on 
Stafford's Committee on Government Island and I am grateful for his 
dedication to our local, and national, treasures.
    And secondly, Jane Conner, a long time Stafford teacher and 
resident. Jane has published several articles, and the definitive 
history of Government Island. She is also a former President of the 
Stafford County Historical Society and member of the Stafford 
Historical Committee.
    Mr. Donald Kennon, Historian of the U.S. Historical Society, called 
this ``an excellent resolution.'' And continued ``I support it fully.'' 
It is my hope that you might see this resolution in the same light. Mr. 
Chairman and members of the subcommittee I encourage your support of 
this important resolution and thank you bringing up this matter today.
                                 ______
                                 
    [recess.]
    Mr. Radanovich. I want to welcome Mr. Randy Jones, who is 
the new deputy director for the National Park Service, comes to 
us from Colorado, Rocky Mountain National Park, and Randy, I 
want to welcome you to Washington to this hearing.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Radanovich. Being your maiden voyage here on the Hill, 
and you are more than welcome to summarize briefly, if you 
want, to all three of these bills.
    Mr. Jones. Do you have a preference of which order I go in?
    Mr. Radanovich. Why don't you just go for it.H.R. 2628

   STATEMENT OF RANDY JONES, DEPUTY DIRECTOR, NATIONAL PARK 
   SERVICE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Jones. Thank you, Mr. Chairman. We do ask that our 
statements be submitted for the record in their entirety, and I 
would be happy to summarize each one. Thank you for the 
opportunity to present the Department of Interior's views on 
H.R. 2628, the bill would direct the Secretary of Interior to 
study the suitability and feasibility establishing the Muscle 
Shoals Heritage Area in Alabama. The Department supports this 
bill, although we did not request additional funding for the 
study in fiscal year 2003, and just to update, the Committee of 
the 40 current studies we have pending, we do expect to have 15 
completed by the end of this calendar year.
    And so we do look forward to starting Muscle Shoals, should 
it be passed by the Congress at the earliest possible date with 
the existing funding levels. Muscle Shoals is the name of a 
section of the Tennessee River in northwestern Alabama that was 
a major navigation hazard due to the Shoals and other 
obstructions in that part of the river. It was selected by 
President Woodrow Wilson as a site for a dam for electric power 
and two nitrate production plants as a national defense measure 
during World War I.
    When the Tennessee Valley Authority was established in 
1933, it was the first area that transferred to the TVA. Nearby 
areas in northeastern Mississippi and southwestern Tennessee 
are part of the Muscle Shoals. In addition to the Wilson dam, 
the area has many notable historic and cultural resources. It 
is also an area that is home to several musicians who have made 
significant contributions to contemporary American, and 
specifically the blues. The National Park Service involvement 
in the area is with several areas, the Natchez Trace Parkway, 
part of the Trail of Tears and the Corinth, Mississippi unit, 
Shiloh Military Park.
    We are pleased to see that the Committee--that the bill 
does include the language that has been traditionally used in 
the last few years for the establishment and study of the 
heritage areas, and it is also very evident that the 
communities and organizations in the Muscle Shoals region value 
their heritage and open space and are looking for ways to 
maintain and enhance these qualities. And we look forward to 
working with these local communities in this particular study. 
The heritage area study conducted by the National Park Service 
would help determine the level of support that might exist in 
the study for heritage area designation and would help identify 
a variety of protection and preservation options.
    [The prepared statement of Mr. Jones on H.Res. 261 
follows:]

Statement of Durand Jones, Deputy Director, National Park Service, U.S. 
               Department of the Interior, on H.Res. 261

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.Res. 261, recognizing the 
historical significance of the Aquia sandstone quarries of Government 
Island in Stafford County, Virginia, for their contributions to the 
construction of the Capital of the United States. Since the resolution 
involves a statement of Congressional recognition and would not become 
law, our comments are limited to providing background information for 
the consideration of the committee.
    Aquia sandstone, or ``freestone'' as it was called in the colonial 
period, found along the Potomac River, was prized for construction 
because of the ease with which it could be carved and transported to 
building sites along the Potomac. The rock is composed primarily of 
quartz sand, pebbles, and clay pellets, cemented by silica. But unlike 
many sandstones, its matrix is harder than its crystals, giving it a 
quality of toughness without brittle hardness. The course-grained stone 
is light gray or tan, streaked or clouded with buff, yellow or red and 
thus is very warm toned. Although the stone was eventually found to be 
ill-suited for building purposes, the problems were overlooked at the 
time because of its immediate availability during the late colonial-
early republican period.
    Large deposits of freestone existed on Wigginton's Island, a 
twelve-acre tract along Aquia Creek in Stafford County, Virginia, which 
would later become known as ``Government Island.'' The island was 
purchased by George Brent in 1694. The Brents established a quarry that 
provided tombstones and stone trim work for some of the colonial 
mansions and churches of Virginia, among them Mount Airy, Gunston Hall, 
Christ Church in Alexandria, and the Aquia Church in Stafford County. 
George Washington had stone steps and walks for Mount Vernon quarried 
and cut there in 1786.
    While planning for the construction of the White House and the 
Capitol in the new city of Washington, George Washington selected 
freestone as the building material for the new executive residence and 
Capitol. The Commissioners of the District of Columbia sent Pierre 
Charles L'Enfant to locate quarry sites and buy the land for the 
quarry. L'Enfant purchased Wiggington's Island for the government in 
1791.
    Architect of the White House James Hoban was assigned the 
responsibility of superintending the construction of both the White 
House and the Capitol. The buildings used the same Aquia stone and 
appear to have been managed as a single construction project. In 1800 
the President's House and the Senate wing of the Capitol were ready for 
use.
    Aquia sandstone continued to be quarried until the finishing of the 
original Capitol in 1825. The original Treasury building, the earliest 
locks and bridges of the Chesapeake and Ohio Canal, and the original 
Patent Office are all constructed of Aquia sandstone. Also built with 
Aquia sandstone were the original gateposts and gatehouse for a fence 
designed by Charles Bulfinch that once surrounded the U.S. Capitol. The 
Bulfinch gatehouses and gateposts were moved from the Capitol grounds 
in 1873 and can still be seen at the corners of 15th and 17th and 
Constitution Avenues. Here the original quarried Aquia sandstone can be 
seen in the raw, without the paint and whitewash that covered the walls 
of the White House and Capitol from the earliest times.
    With the burning of the White House and Capitol by British troops 
in 1814, the Aquia stone walls appeared cracked and split. Much of the 
walls had to be taken down and rebuilt, and the defects of the stone 
became apparent. Many of the newer government buildings were then built 
with marble and granite, brought to Washington by the new railroads.
    In 1857 a nearby land owner complained to the Department of the 
Interior through his Congressman that squatters were living on 
Wiggington's Island (by then known as Government Island) because the 
government had abandoned it after almost entirely exhausting the 
freestone. The Interior Department responded by appointing the 
landowner as a government agent for the island.
    Federal ownership of Government Island became even more tenuous 
during and after the Civil War. In 1878, the Aquia quarry was 
considered abandoned and sold by the state of Virginia to a private 
landowner. In 1959, when the owner intended to log the island, the 
unclear title was brought to the attention of the Architect of the 
Capitol, who alerted the Justice Department of a possible Federal claim 
to the property. Confirming Federal ownership, the Justice Department 
turned the property over to the General Services Administration for 
sale. In 1963, Government Island was sold by GSA to a private 
individual for $6,345.
    Stafford County purchased Government Island a few years ago for use 
as a public park. Currently, plans are being developed to open the site 
to the public and to provide recognition of the important role the 
sandstone from the property played in the history of the construction 
of our nation's capital city.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
    [The prepared statement of Mr. Jones on H.R. 2628 follows:]

Statement of Durand Jones, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 2628

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2628. This bill would direct 
the Secretary of the Interior to study the suitability and feasibility 
of establishing the Muscle Shoals National Heritage Area in Alabama.
    The Department supports this bill, but we did not request 
additional funding for this study in Fiscal Year 2003. We believe that 
any funding requested should be directed towards completing previously 
authorized studies. Presently, there are 40 studies pending, of which 
we hope to transmit 15 to Congress by the end of 2002. We have concerns 
about adding new funding requirements for new park units, national 
trails, wild and scenic rivers or heritage areas at the same time that 
we are trying to work down the deferred maintenance backlog. To 
estimate these potential new funding requirements, the Administration 
will identify in each study all of the costs to establish, operate and 
maintain the proposed site.
    Muscle Shoals is the name of a section of the Tennessee River in 
northwestern Alabama that was a major navigation hazard due to the 
shoals and other obstructions in that part of the river. Repeated 
governmental efforts in the 1800's to make that part of the river safe 
for navigation by building canals and locks were unsuccessful. However, 
Muscle Shoals was selected by President Woodrow Wilson as the site for 
a dam for electric power and two nitrate production plants as a 
national defense measure during World War I, which was possibly the 
nation's largest public work of its time. The completion of the dam in 
1925, named for President Wilson, created a lake over the shoals and 
thus solved the river's navigation problems. A major debate over public 
versus private ownership of the Wilson Dam and the nitrate facilities 
made Muscle Shoals a focus of national attention during the 1920's and 
1930's. The issue was resolved when the Tennessee Valley Authority 
(TVA) was established in 1933 and the facilities were transferred to 
that entity. For that reason, Muscle Shoals is generally considered the 
birthplace of the TVA.
    With the shoals submerged today, the name Muscle Shoals is used to 
refer to the area that includes Lauderdale, Colbert, Franklin, and 
Lawrence counties in Alabama, within which lie the cities of Florence, 
Sheffield, Tuscumbia, and Muscle Shoals City. Nearby areas in 
northeastern Mississippi and southwestern Tennessee are considered part 
of the Muscle Shoals region. In addition to the Wilson Dam, which was 
designated a National Historic Landmark in 1966, the area has many 
notable historic and cultural resources including the home of Helen 
Keller, Frank Lloyd Wright's Rosenbaum House, and a number of historic 
Victorian and Arts and Crafts residences. Florence hosts an annual 
music festival named for blues musician W.C. Handy, who resided there, 
and the region is home to several other musicians who have made 
significant contributions to contemporary American music.
    In addition, there are Native American and Civil War resources in 
the area, some of which are managed by the National Park Service. The 
Natchez Trace Parkway, following the historic route of the Trace, runs 
through the region. Part of the 1838 Trail of Tears is located in the 
area. The Corinth, Mississippi unit of Shiloh National Military Park is 
located in the vicinity.
    H.R. 2628 authorizes the Secretary of the Interior to conduct a 
study to determine whether the Muscle Shoals region is suitable and 
feasible to designate as a national heritage area. The bill contains 
the criteria for making this determination that has been used for other 
national heritage area studies that Congress has authorized in recent 
years, and it includes the three-year time frame for conducting the 
study that most bills include. H.R. 2628 provides for the study to be 
conducted in consultation with State historic preservation officers, 
State historical societies, and other appropriate organizations. The 
bill further specifies that the study consider a number of factors 
including local and state interest and support.
    The National Park Service has defined a national heritage area as a 
place designated by Congress where natural, cultural, historic and 
scenic resources combine to form a cohesive, nationally distinctive 
landscape arising from patterns of human activity shaped by geography. 
It is not the role of the National Park Service to manage or regulate a 
national heritage area, but to assist the variety of local partners and 
landowners that work together to achieve the common goal of protecting 
and interpreting important places where people live and work.
    It is evident that communities and organizations in the Muscle 
Shoals region value their heritage and open space and are looking for 
ways to maintain and enhance these qualities. The city of Florence, for 
example, has implemented a waterfront improvement program that includes 
an outdoor amphitheater, biking and hiking trails, a marina, public 
riverside walks, and other public spaces. The city has also constructed 
a new bridge with intermodal connectors to road and trail systems 
across the river in Colbert County and through the Tennessee Valley 
Authority Reservation, which provides linkages to Natchez Trace 
National Historic Trail and Trail of Tears interpretive sites, Civil 
War sites, and other cultural resources along the Tennessee River.
    A heritage area study conducted by the National Park Service would 
help determine the level of support that might exist in the study area 
for heritage area designation and would help identify other protection 
and preservation options. The study would likely examine existing 
efforts to enhance cultural, natural, and recreational opportunities, 
such as those that are underway at Florence, and assess how such 
efforts might tie in with other resources and values identified in the 
study area. A critical element of the study would be the evaluation of 
the integrity of the resources and the nationally distinctive character 
of the region.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 ______
                                 
    [The prepared statement of Mr. Jones on H.R. 2643 follows:]

Statement of Durand Jones, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 2643

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2643, a bill to adjust the 
boundaries of Fort Clatsop National Memorial.
    The Department of the Interior supports H.R. 2643, with some 
technical and clarifying amendments as outlined in this testimony. This 
legislation will expand the boundaries of Fort Clatsop National 
Memorial, as called for in the site's General Management Plan, to 
include lands on which a trail linkage between Fort Clatsop and the 
Pacific Ocean will be established. The bill would also include within 
the boundary lands that will create a buffer zone to protect the scenic 
and natural resources that frame the park setting. The Department 
previously testified in support of a Senate companion bill, S. 423. The 
only substantive difference between the two bills is that H.R. 2643 
includes two additional sites within the study provision.
    Meriwether Lewis and William Clark set off with their Corps of 
Discovery on May 14, 1804, on an incredible journey that was to be a 
pivotal event in helping to shape the young United States. Their 
instructions from President Thomas Jefferson were to explore the 
Missouri River to its source, establish the most direct land route to 
the Pacific Ocean, and to make scientific and geographic observations 
along the way. A year and a half later, having traversed the continent, 
the expedition arrived at the Pacific Ocean and soon thereafter found a 
site that was suitable for winter quarters on what is known today as 
the Lewis and Clark River. On December 8, 1805, the expedition members 
began building a fort, and by Christmas Eve they were under shelter. 
They named the fort for the friendly local Indian tribe, the Clatsops. 
It would be their home for the next three months.
    Life at the fort was far from pleasant. It rained every day but 12 
of the 106 days at Fort Clatsop. Clothing rotted and fleas infested the 
furs and hides of the bedding. The dampness gave nearly everyone 
rheumatism or colds, and many suffered from other diseases. With all 
the adversity, the members of the expedition continued to prepare for 
the return trip that would take some home to family and friends, some 
to wealth and fame, and others to new lives in the wilderness. All 
gained a place in history among the greatest of explorers. They were 
truly the ``Corps of Discovery.''
    Fort Clatsop National Memorial marks the spot where Lewis and Clark 
and the Corps of Discovery spent the winter of 1805-1806, and is the 
only unit of the National Park System solely dedicated to the Lewis and 
Clark expedition. The bicentennial of the historic journey is fast 
approaching, and it is expected that well over one million people will 
visit the site during the bicentennial years of 2003 through 2006.
    The historic site of Fort Clatsop was originally preserved and 
protected by the Oregon Historical Society, and local citizens 
constructed an exact replica of the fort itself, which had long ago 
disappeared, except for drawings and descriptions in the journals of 
Lewis and Clark. In 1958, Fort Clatsop National Memorial was 
established by Public Law 85-435, which authorized the inclusion within 
the memorial of lands that are associated with the winter encampment of 
the Lewis and Clark Expedition, including adjacent portions of the old 
trail which led overland from the fort to the coast, where members of 
the expedition worked to make salt for their trip back across the 
continent. The act also limited the site to no more than 125 acres.
    Soon after the enactment of Public Law 85-435, the National Park 
Service acquired the land immediately surrounding the fort, and in 
1978, the Salt Cairn site on the coast was added to the memorial by 
Public Law 95-625. However, the lands between the fort and the ocean, 
including the trail, have not been acquired. Legislation is needed to 
accomplish this goal since the memorial has already effectively reached 
its acreage limitation.
    The 1995 General Management Plan for the memorial calls for the 
establishment of the trail linkage between Fort Clatsop and the Pacific 
Ocean, and in addition proposes to add sufficient land area to the 
memorial to provide for the protection of the scenic and natural 
resources that frame the park setting. Since the natural setting of the 
encampment area is an important component of the Lewis and Clark story, 
its preservation would assist in public interpretation at the fort, 
along with providing a corresponding benefit to the natural environment 
surrounding the fort. H.R. 2643 increases the authorized size of Fort 
Clatsop National Memorial from 125 acres to 1,500 acres and reflects 
the intent of the General Management Plan to include these lands within 
the park's boundary.
    In addition, this legislation includes the addition of a ``non-
development buffer zone'' at the request of Willamette Industries, who 
suggested that these additional lands, totaling approximately 300 
acres, be included to protect the viewshed from their timber 
operations. The Department and Willamette have agreed that these lands 
should be acquired by condemnation because Willamette's title to the 
property is not clear. Since obtaining a quiet title to the standards 
required by the Department of Justice would be exceedingly difficult, 
if not impossible, both parties have agreed that condemnation is the 
best alternative.
    The Department believes that this legislation is important for 
several reasons. First, time is of the essence in completing the land 
acquisition, environmental reviews, engineering and design, and trail 
construction that is necessary to complete this final link in the Lewis 
and Clark National Historical Trail for the bicentennial commemoration. 
Secondly, this legislation represents the completion of a process 
heavily influenced by local stakeholders. Third, this bill enjoys 
broad, bipartisan support at all levels, including local and state 
bicentennial planning committees in Oregon and Washington, Clatsop 
County, the Chinook Tribe, and the National Council of the Lewis and 
Clark Bicentennial.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog and is concerned about the development and life 
cycle operational costs associated with expansion of parks already 
included in the National Park System. However, in light of the 
increasing interest in the Lewis and Clark story as we approach the 
bicentennial of the expedition, the Department believes that the $7.5 
million needed for land acquisition, and the $1.1 million for 
development costs associated with trailhead facilities, parking lots, 
and other associated infrastructure are justified. Funding for land 
acquisition and development would be subject to NPS servicewide 
priorities and the availability of appropriations.
    In addition, we note that the Fort Clatsop Historical Association 
has already purchased some of the lands associated with this 
legislation and will donate them to the park after the boundary has 
been adjusted. We expect that the government's efforts will be 
leveraged through several partners, including the Army National Guard, 
local trail enthusiasts, and the local high schools, who have agreed to 
volunteer with trail construction and maintenance. We anticipate the 
park would seek only minor increases in operational costs (below 
$250,000) beyond its existing base funding of $1.1 million.
    H.R. 2643 also includes a provision to authorize the Secretary of 
the Interior to conduct a study of several locations on the Washington 
side of the Columbia River, including the area known as ``Station 
Camp,'' which is where the Lewis and Clark expedition camped from 
November 15-24, 1805. While the Department supports this study 
provision in concept, we believe that the study should carefully 
examine the full life-cycle operation and maintenance costs that would 
result from each alternative considered. In addition, in light of our 
commitment to eliminate the deferred maintenance backlog in the 
national parks, our support for the study does not necessarily indicate 
that the Department would support any new commitments that may be 
recommended by the study, and that could divert funds from taking care 
of current responsibilities.
    Our recommendations for technical and clarifying amendments are 
attached to this testimony. In addition, Findings 5, 8, and 9 found in 
Section 2 of H.R. 2643 include language that indicates that some of the 
sites to be studied for possible addition to the park are nationally 
significant and should be added to the park. Since the study would 
examine these issues, we would be happy to work with the subcommittee 
to develop language that will clarify these findings so that the 
outcome of the study is not predetermined by this legislation.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.
    Proposed amendments to H. R. 2643:
    On page 4, line 16, insert ``as `Addition Lands''' after the word 
``depicted''.
    On page 4, line 18, strike ``405-80016-CCO'', and insert ``405-
80026A-CCO''.
    On page 4, line 18 through 21, strike the sentence that begins 
``The Secretary shall maintain ``'', and insert ``The area designated 
in the map as the ``Buffer Zone'' shall not be developed, but shall be 
managed as a visual buffer.''
                                 ______
                                 
    Mr. Jones. Moving on to H.R. 2643, to a bill to adjust the 
boundaries of Fort Clatsop National Memorial, and I do have 
with me today Don Striker, the superintendent, who is also 
available to answer any questions you may have. The Department 
supports H.R. 2643 with some technical and clarifying 
amendments as outlined in this testimony. The legislation will 
expand the boundaries of Fort Clatsop National Memorial as 
called for in the site's general management plan that is 
consistent with park planning efforts over the years, and would 
include lands of which a trail linkage between Fort Clatsop and 
the Pacific Ocean would be established.
    The bill also includes the boundary lands that would create 
a buffer zone to protect the scenic and natural resources that 
frame the park setting. The Department has previously testified 
in support of the Senate companion bill S. 423, and there are 
only minor differences between the two bills, mostly regarding 
what lands would additionally be studied in the State of 
Washington.
    Meriwether Lewis and William Clark set off with their Corps 
of Discovery in 1804, an incredible journey that was pivotal to 
the shaping of the young United States. The Fort Clatsop 
National Memorial marks the spot where Lewis and Clark and the 
Corps of Discovery spent the winter of 1805 and 1806, and is 
the only unit of the National Park system solely dedicated to 
the Lewis and Clark expedition. This is a very timely piece of 
legislation giving the celebration coming up over the next 
couple of years, and we do support this legislation and hope it 
will be enacted.
    The Department and Willamette Industries have agreed that 
the lands that they currently hold should be acquired by 
condemnation and the major purpose for this is dating back to 
the 1920's and 1930's. There are some issues of title that need 
to be cleared, and both we and Willamette industries have 
agreed that the condemnation is the best way to solve those 
title questions in the acquisition of the property. We believe 
legislation is important for several reasons.
    First, the time is of the essence in completing the land 
acquisition, environmental reviews, engineering design and 
trail construction that is necessary to complete the final link 
in the Lewis and Clark National Historical Trail for the 
bicentennial commemoration.
    Second, the legislation represents completion of a process 
heavily influenced by the local stakeholders in the 
establishment of this proposal. And third, this bill enjoys 
broad bipartisan support at all levels, including local and 
State bicentennial planning Committees and Oregon and 
Washington Clatsop County, the Chinook tribe, and the National 
Council of the Lewis and Clark Bicentennial. We believe the 
expenditure involved in this proposal, which would include 7.5 
million for land acquisition and approximately 1.1 million for 
the development costs associated with trail head facilities, 
parking lots, and other associated infrastructure is justified 
and an appropriate expenditure.
    The Fort Clatsop Historical Association has already 
purchased some of the lands associated with this legislation. 
We will donate them to the park after the boundary has been 
adjusted. The bill also includes a provision to authorize the 
Secretary to study several locations in the Washington side of 
the river. We do propose some technical clarifications to the 
legislation, and believe that the study should look at a 
variety of protection options, for example, cooperative 
agreements and other methods that could be used to protect the 
properties, not just whether they should be further additions 
to the national park system.
    Mr. Jones. And finally, and very brief is the testimony on 
the House Resolution 261, concerning the historical 
significance of the Aquia sandstone quarries of Government 
Island in Stafford County. Since the resolution involves a 
statement of congressional recognition and would not become 
law, our comments are limited to providing background 
information for consideration of the Committee. The main thing, 
I guess, there is no doubt of the significance of the sandstone 
areas, their contributions to the construction of the White 
House and the Capitol, and, in fact, I would offer as a 
personal note when I was at the White House yesterday, it was a 
very powerful sight to see a section of the sandstone that is 
left where you can still see the fire scarring of when the 
White House was burned in 1814. And so it is actually a very 
moving experience to see that section of the sandstone and so 
we feel that this is a good proposal.
    Mr. Radanovich. Great. Thank you, Mr. Jones.
    Mr. Radanovich. I have just got a couple questions, and 
then I will defer to those who have bills here before us. 
Regarding 2628, which would be the Muscle Shoals, is there 
currently any national heritage area that encompasses similar 
cultural resources that are proposed in this legislation?
    Mr. Jones. The heritage areas all--they all are variations 
on a theme of having significant, in some cases, natural 
resources, a theme, for example, tying my experience in 
Colorado, the Cache La Poudre Heritage Area has a strong 
statement about the history of water development and the 
cultural resources of developing and moving water from the west 
to the east slope of the Rocky Mountains. So there are a 
variety of themes that exist in different heritage areas, and 
the key thing is that what is important to the local 
communities and what advice and technical expertise we can 
offer to them as they come up with protection scenarios.
    Mr. Radanovich. I see. OK. I am going to refer to other 
members to ask questions. I will start with Mr. Wu and then 
proceed crisscross down the line if that is OK.
    David, go ahead.
    Mr. Wu. No.
    Mr. Radanovich. No questions? None at all?
    Mark.
    Mr. Souder. First of all, welcome to Washington.
    Mr. Jones. Thank you.
    Mr. Souder. It is good to see you in your new post, and I 
am sure you will get to come up, and today will be easy to 
compared to probably some the future. So it is a good hearing 
to start with. I have a few questions. I have been very 
supportive of the Fort Clatsop legislation. I believe that the 
Lewis and Clark event is indeed truly of tremendous national 
significance, and we need to make sure that we are moving 
rapidly at this point to pull this type of project together, 
because if indeed this land can be added to Fort Clatsop, that 
means land transfers, that means trail preparation for those 
who when the actual bicentennial occurs, the ability to walk 
from the camp site to the ocean will be a tremendous addition, 
but you don't do that in just a few months.
    So speed is important both for us here in Congress, and 
then once we pass this legislation which is, presumably, not 
very controversial. It is just a matter of keeping it moving.
    From what I can tell, the difference between the Senate and 
the House bills is that it looks like there are three basic 
differences. In the findings, the first eight findings actually 
are the same as I think the six in the Senate. Merely, they are 
divided differently. But I think the first four, in particular, 
are chopped in two and it starts. But in finding number 9 about 
the Washingtonsites, it is actually identical language in study 
of station camp site.
    In other words, in the findings, it is the same as the 
Senate bill, but there is language that specifically says--and 
it is a difference between the two bills that say the short 
term implementations of--it says that the comprehensive study 
of alternative mechanisms for long-term protection of and 
visitation of Lewis and Clark sites along the lower Columbia 
River and the short-term implementation of bicentennial 
commemorative activities.
    Does the Park Service have any objection or comment on our 
putting into legislation the need for urgency, or can we get 
some kind of a commitment that this can be done and turned 
around rapidly as a study? Because if those Washingtonsites are 
not necessarily going to be in the Park Service but included in 
the operation in some way, we need to get a study back to us 
rapidly.
    Mr. Jones. I think we need to differentiate from our 
priority setting in the Park Service right now of we do need to 
move very quickly when it comes to implementing the legislation 
as far as the land acquisition, and also the construction 
activities, to get ready for the bicentennial. The challenge we 
have on the study side is the fact that right now, the pipeline 
is pretty full and we are at static funding levels to 
accomplish those studies. So I think it is premature at this 
point for me to commit to a detailed timetable on the 
completion of the study. But I can certainly follow up on that 
and will talk to our folks, because I understand the position 
you are representing and share the concern is that there will 
be certainly national focus and attention on Lewis and Clark 
here in the next couple of years.
    Mr. Souder. I am going to come back to that in a second. 
The other difference seems to be in the limitation it says in 
the Senate bill, I believe, the lands depicted on the map 
referred to in section 2(b) may be acquired--will be purchased 
from willing sellers with the exception of corporately owned 
timberlands, and the House adds ``acquired only by donation or 
purchase.''
    Now, at this point, it doesn't seem that there is anybody 
who wants to donate, but do you have any objections to adding 
donation, or do you feel that is necessary?
    Mr. Jones. Actually, I believe there are a couple of 
properties that might come to us as a donation, and there is no 
problem with that as being an option. The key thing is that we 
do feel that the condemnation is necessary for the title 
clearing purposes of the corporate timberlands, though.
    Mr. Souder. Do you believe in the wording of the Senate 
bill currently if we don't have donation--because one thing 
that is helpful if the bills match, this would require us to 
have either a change in the Senate or a conference. Do you 
believe that the Senate bill prohibits donation?
    Mr. Jones. I don't believe it does.
    Mr. Souder. Because--
    Mr. Jones. Excuse me. The National Park Service does have 
generic authority to accept donations within the boundaries of 
areas.
    Mr. Souder. The problem comes with the word ``limitation.'' 
the lands depicted on the map referred to in Section 2(b) may 
be acquired only by purchase from willing sellers. It was 
intended to make it willing sellers, but it sounds like it may 
have had a prohibition inadvertently on donation. If you could 
look at that specifically to make sure that we have that 
correctly addressed.
    Mr. Jones. I understand the point you are making and would 
be happy to work with you--
    Mr. Souder. It would have been inadvertent if--
    Mr. Jones. Yes.
    Mr. Souder. --it was that.
    Now if I could get back to the short-term questions on the 
Park Service. I think that, while these Washingtonsites may 
very well be worthy of the National Park Service inclusion with 
the Fort Clatsop, I think we need to carefully consider whether 
we want to mandate in effect that is what you are studying or 
whether you are studying for a possible inclusion or 
alternative and whether we want to preclude that. But I don't 
necessarily disagree they should be part of Fort Clatsop, but 
we want to have some way that it is a fair study, and not that 
the Park Service, because they don't want additional things, 
kind of stiff-arms it if we change the language to say ``or 
alternatives.''
    In other words, we want it to be a fair study. Should it be 
part of the Park Service? Is it a logical extension or isn't 
it? Are there other means to do it? Because if it is a national 
significant site, then it should be in the national historic 
site part. Not necessarily because the State would take it 
should it go to the State. It is kind of a blend of what is the 
logical thing from a consumer's standpoint as well as from a 
cost standpoint.
    So I agree that the study--we could work out language--I 
think Congressman Baird and the Washington delegation are going 
to be very concerned about any kind of changes that would in 
effect enable the Park Service to avoid that becoming part of 
it. We don't want to prejudge either direction.
    With indulgence of the Chairman, may I raise one other 
point? In your testimony on Muscle Shoals, and you alluded to 
it and some of the others, you have a statement, to estimate 
these potential new funding requirements, the administration 
will identify in each study all the costs to establish, operate 
and maintain the proposed site. Is that a new--I mean, it is 
actually a good idea. I am wondering if that is a new policy 
statement. I don't recall--
    Mr. Jones. It is a clarification. In the past, some of our 
studies we have been inconsistent; and, in some cases, we 
identified all the associated costs and others we have not. And 
we feel, as a general rule, to make the best informed 
decisions, cost needs to be a factor.
    Mr. Souder. Do you believe that should be--when we do 
generic heritage area legislation, this be done 
administratively or do you feel that should be in each bill, 
that that be included?
    Then, as a follow-up, if it is administrative rather than 
legislative, it would be, I think, important for our Committee 
to know exactly how you are doing these funding requirements. 
Because as I see most of the heritage areas, they are really 
kind of vague in the sense of--``kind of vague'' is a very kind 
statement. They are extremely vague as far as what is actually 
going to be included, whether there are going to be visitor 
centers. Because what it comes down to is how much can be 
raised locally and how much can the member get out of the 
Appropriations Committee.
    I would like to know more how you are going to establish 
and estimate costs. Are you going to have plan A, plan B, plan 
C, if they do this, if they do this, if they do this? For 
example, those things all have tremendous impact on how much 
time and research the Park Service would be required to 
support.
    The funding side really is going to be done through the 
appropriations process, not really through the heritage area; 
and, quite frankly, from what we have seen in the process, if 
this authorizing Committee doesn't declare the heritage area or 
the Park Service as slow, it may go through the Appropriations 
Committee anyway with a waiver and try to get this started. So 
trying to bring some order makes sense, but it would help those 
Members, including me and others who are working on heritage 
areas, to figure out how to actually get some financial 
responsibility and clarification of these processes.
    So to the degree that you in your new position and others 
in the administration can help us identify that so that--when 
we hear these, every project sounds great. Every project sounds 
wonderful. What is the actual cost if we do A, B and C? How do 
we as an authorizing Committee define this so it isn't just who 
can get the last-minute thing in the appropriations process.
    If I can make one other side comment with that, a similar 
thing on the heritage areas. The reason I was concerned about 
the timing on Lewis & Clark is because I am not sure--for 
example, is there a way to check that heritage areas that were 
pushed through at the end of a session, that that Member is 
even still in Congress or the group that originally proposed 
the heritage area is still functioning? And is there a way in a 
logical identifying process--because we have been passing these 
heritage areas through like crazy, the studies, and we haven't 
made the responsible decision in how to do a prioritization of 
this.
    It sounds like you are saying it is chronological; and, if 
it is, then Members of Congress need to know it is 
chronological. Because some things may come up where there is a 
need for speed, such as a bicentennial, such as an historic 
area that is at risk, an area that has, in effect, raised 100 
percent of what they need and another area that is conceptual. 
We need to look at that if indeed this process of how you are 
doing the studies is chronological. Congress needs to 
understand that so we can either, through legislation, direct 
on specific studies or put clear guidelines in.
    Mr. Jones. There has been precedent in other pieces of 
legislation where we have been given exact deadlines to 
complete projects as well.
    Mr. Souder. In other words, you are saying you do it 
chronologically unless--
    Mr. Jones. Generally chronologically, except most of our 
studies are worked through our regional offices; and, 
geographically, the number of studies pending are not equal and 
so the pipeline is fuller in some regions than in others.
    Mr. Souder. So that, for example, if your study No. 5, even 
if you were one of the first seven passed but there are five in 
one area, a study that comes in much later in the Midwest or 
West, so that gives some geographical balance to the country?
    Mr. Jones. That is correct.
    Mr. Souder. Thank you.
    Mr. Radanovich. Thank you.
    Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman. I will be brief.
    Randy Jones, welcome aboard; and I look forward to working 
with you as an appropriator for us to, as Mr. Souder indicated, 
to establish some sort of businesslike and orderly approach to 
what is involved, where the local community is coming from, 
what they are putting on the table as well.
    I appreciate the opportunity to, in your presence and in 
the Committee's presence, to be able to talk about my area. A 
lot of what happens around here with authorizing and then, 
hopefully, with appropriations is that we stand in line for a 
while, and that is as it should be. Because the Federal 
Government can't afford every project, and not every project is 
equally worthy. So what my community will offer you today and I 
offer the Committee today I hope is more complete information 
about the 10 years that we have been organizing and working on 
this.
    We, too, have some deadlines like other communities might 
have. We have got oral history that has been passed on that we 
are trying to preserve, a combination of different types of 
issues that we are trying to collect together. But I 
appreciated my conversation with you today and your interest in 
the heritage project. So I want to reinforce that I will work 
with you any way that I and my community can to make sure that 
we do what we need to do to show our side of support for the 
project as well.
    Mr. Jones. I am personally very excited by the heritage 
idea because it is a wonderful way to protect resources that 
are--decisions are driven by the local people themselves. It is 
an appropriate concept, and it works very well, and I think 
they have been very successful. The speed and process is 
directly affected by how well organized groups are at the local 
level. Because when they have done a lot of the work it makes 
it a lot easier to do the study.
    Mr. Cramer. And you have got 40 of these pending already; 
is that correct?
    Mr. Jones. Not just heritage areas but a variety of studies 
authorized by the Congress.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you.
    Ms. Davis. No questions?
    Thank you very much, Mr. Jones.
    Mr. Jones. Thank you.
    Mr. Radanovich. You are welcome.
    Mr. Radanovich. We will move on to be our next panel which 
includes Alvin Rosenbaum, who is a CultureNet Consultant and 
Senior Visiting Scholar of George Washington University; Ms. 
Nancy Gonce, Executive Director of the Music Preservation 
Society, Florence, Alabama; Mr. Borlaug, President of the 
National Council of the Lewis and Clark Bicentennial from 
Washburn, North Dakota; Mr. Rex Scouten, former White House 
Curator from Fairfax, Virginia; Ms. Jane Conner, retired 
teacher and Stafford County Historian from Stafford, Virginia. 
Welcome.
    I will say that we have got a vote coming up probably at 
about 11:30, so I would encourage those that are giving 
testimony to summarize from their prepared text, if you would 
wish. If you could keep your comments to 5 minutes or less, 
that would be wonderful, and that will give us time to have 
some conversation afterwards. So welcome.
    Mr. Radanovich. We will start with you, Nancy. Welcome and 
please begin.

      STATEMENT OF NANCY GONCE, EXECUTIVE DIRECTOR, MUSIC 
      PRESERVATION SOCIETY, FLORENCE, ALABAMA (H.R. 2628)

    Ms. Gonce. Thank you. Thank you for the opportunity to 
address you today, Mr. Chairman and members of the 
Subcommittee. It is indeed an honor for me to appear before 
this Subcommittee on National Parks, Recreation and Public 
Lands in support of H.R. 2628 to authorize the Secretary of the 
Interior to study the suitability and feasibility of 
establishing the Muscle Shoals National Heritage Area in 
northwest Alabama.
    I have submitted written testimony, and these comments 
today will expand upon the earlier documents.
    My name is Nancy Gonce, and I serve as executive director 
of the Music Preservation Society, as Chairman of the Cultural 
Affairs Committee of the Chamber of Commerce of Shoals and as 
chair of Shoals CutureNet. Separately and in partnership we 
have been working for a decade to study and identify the unique 
cultural heritage and history of the Muscle Shoals area. 
Several reports have been referenced in your packet.
    This strong partnership potential is a significant factor 
in this request for the National Park Service study for the 
national heritage area designation. We believe that our 
experience, research and willingness to engage in strategic 
planning and long-range planning is evidence of our capacity to 
administer the proposed national heritage in Alabama.
    Separately and together we have a strong history of 
cooperation through public/private initiatives and joint 
projects. Our arts and cultural heritage bring us together, 
sustain us in a creative way and provide lessons for the 
future. Our accomplishments include a dedication as individuals 
and organizations to engage in research, documentation, 
strategic planning and coalition building.
    The most significant aspects of our heritage and culture is 
the Tennessee River and the rocky shoals which gave the region 
its name. Legends tells that us that our music started with 
water rushing over rocky shoals. American Indians living along 
the banks of the Tennessee River called the great inland 
waterway the Singing River.
    Later, W.C. Handy heard the music and so did Sam Phillips 
and Percy Sledge, hundreds of musicians and songwriters who 
have roots in the shoals and who have created a unique place in 
the development of 20th century American music. That heritage 
is celebrated during the W.C. Handy Music Festival, at the 
Alabama Music Hall of fame, the W.C. Handy Home and Museum and 
during the Muscle Shoals Musical Association's Songwriters 
Festival.
    The courage of our people may perhaps be best illustrated 
by the life of America's first lady of courage, Helen Keller. 
Ms. Keller's story is told each year at her home and 
birthplace, Ivy Green. William Gibson's play The Miracle Worker 
is performed not many steps from the pump where the waters 
helped her to understand the meaning of words.
    Courage is also exemplified by the young athlete who left 
his north Alabama home and defied Hitler by winning medal after 
medal at the Olympic games. We celebrate that life and the 
accomplishments at the Jessie Owens Memorial.
    Our Indian Museum houses artifacts and history of the 
earliest residents of the Muscle Shoals area. We commemorate 
the Trail of Tears and the final journey west. It is said that 
one could hear the artillery fire at Muscle Shoals as the Civil 
War battle of Shiloh raged miles away. Pope's Tavern served as 
a hospital for both Union and Confederate wounded. Jackson's 
military road passes through the region.
    There are more than 450 properties on the Register and 8 
historic districts in Florence alone. Our architecture tells 
the American story as well as the Muscle Shoals story. The land 
boom of the early 1900's when Henry Ford and Thomas Edison came 
to Muscle Shoals was not unlike the attention given in the 
region a century earlier. The Cypress Land Company purchased 
what is now the city of Florence from the U.S. Government. Some 
of the early landowners included General Andrew Jackson, former 
President James Madison and President James Monroe.
    The Muscle Shoals region has attracted and produced 
interesting people, and our citizens have taken a place in our 
Nation's creative heritage. A partial list is included in your 
packets.
    We urge you to support H.R. 2628 to permit the Muscle 
Shoals National Heritage Area study. The honor of this 
designation would provide us with the opportunity to develop 
new partnerships, preserve, present and promote our unique, 
cultural heritage, acknowledge our place in our Nation's 
history, and create new economic development project.
    Thank you, Congressman Cramer, for your kind words. Thank 
you, Mr. Chairman and members of the Subcommittee, for this 
opportunity to come before you today in support of the Muscle 
Shoals National Heritage Area study.
    Mr. Radanovich. Thank you, Ms. Gonce. Appreciate that.
    [The prepared statement of Ms. Gonce follows:]

  Statement of Nancy C. Gonce, Executive Director, Music Preservation 
               Society, Florence, Alabama, on H. R. 2628

Muscle Shoals National Heritage Area Study Act
    Mr. Chairman, I am grateful for the opportunity to appear before 
the Committee on Resources, Subcommittee on National Parks, Recreation 
and Public Lands in support of House Bill 2628 to authorize the 
Secretary of the Interior to study the suitability and feasibility of 
establishing the Muscle Shoals National Heritage Area in Alabama.
    My name is Nancy Gonce and I am executive director of Music 
Preservation Society, Inc. established in Florence, Alabama in 1982. I 
also serve as chair of Shoals CultureNet, a region-wide coalition of 
arts, business, historic preservation, and outdoor recreation 
organizations and agencies as well as the chair of the Cultural Affairs 
Committee of the Shoals Chamber of Commerce.
    It has become increasingly clear that the quality of the Shoals' 
cultural and natural resources substantially (if not conclusively) 
determine plant location decisions, in-migration, small business 
incubation and development, retirement living, and tourism economies. 
These resources include the rich variety of recreation, arts, quality 
education, home and family life opportunities that make the Shoals one 
of the best places on Earth to call home.
    It is important to think about cultural heritage resources in a 
broader context than historic places or cultural events. Cultural 
heritage resources are the essence of who we are. We also tend to think 
of cultural heritage as special events and places, religious rituals, 
folk arts, cuisine, holiday-making and celebrations.
    In 1992 a citizens committee was organized by University of North 
Alabama president Robert Potts to host a conference, ``Muscle Shoals 
Reconsidered,'' which was held April 22-23, 1993. The group included 
John Shields a TVA vice president; Steve Ainsley, publisher of the 
Times Daily newspaper; former Congressman Ronnie Flippo and writer/
regional planner Alvin Rosenbaum, serving as conference director. The 
purpose was to bring together a leadership group of 250 officials and 
citizens to recast and reposition the Shoals for resource enhancement 
and protection, the promotion of tourism, plant and business formation 
and relocation, and retirement living. But it also sought to 
reintroduce, invigorate and inculcate a sense of pride among its 
citizens in the rich heritage of the region.
    The 1993 conference served as a tremendous boost for the region, 
enjoying wide participation and substantial media coverage. As Robert 
Potts has observed, ``Muscle Shoals Reconsidered'' was the catalyst 
that spawned our riverside and downtown beautification and 
redevelopment projects and reminded us of the national significance of 
our history.'' As one who attended the conference, I have observed the 
changes in our community with different sensibilities.
    Stimulated by Muscle Shoals Reconsidered, numerous projects were 
launched, including downtown redevelopment efforts throughout the 
region, new and substantial tourism promotion activities with an 
expanding hotel and restaurant industry, ambitious historic 
preservation and landscaping initiatives, and a growing sense of pride 
and progress in virtually every sector of the economy.
The Shoals CultureNet
    The Shoals CultureNet was organized in 1999 as an outgrowth of the 
``Muscle Shoals Reconsidered'' to provide a strategic plan and 
mechanisms to link cultural heritage and quality of life assets to 
economic development and conservation efforts for the Muscle Shoals 
region.
    Shoals CultureNet was organized by the Music Preservation Society. 
Members of the Shoals CultureNet working group initially were from the 
University of North Alabama, Florence-Lauderdale Tourism Board, Colbert 
County Visitors and Convention Bureau, Tennessee Valley Arts 
Association, Chamber of Commerce of the Shoals, and the business 
community. The committee has now expanded through partnership with the 
Cultural Affairs Committee of the Shoals Chamber of Commerce as well as 
additional arts, cultural, and community leaders. Collectively over the 
past decade the groups have produced the 1993 Muscle Shoals 
Reconsidered Conference, 1990 Economic Impact of Arts and Culture in 
The Shoals, 1995 Economic Impact of Arts and Culture in The Shoals, 
Shoals CultureNet Study 2000, and the 2002 Muscle Shoals Reconsidered 
II Conference.
    The Shoals CultureNet has been a volunteer coalition of cultural, 
natural resource, business and civic groups whose purpose is to foster 
a planning process that is ongoing and continuous and that seeks to 
address issues related to the protection of its cultural heritage for 
the enjoyment of its citizens and visitors to the Muscle Shoals region.
    The Shoals CultureNet is committed to:
    <bullet> Lprotection of important and significant natural and 
cultural resources in the Muscle Shoals region;
    <bullet> Ldevelopment of strategies for integrative, coherent, 
unifying decision-making;
    <bullet> Lproviding support for the appropriate allocation of 
community resources;
    <bullet> Lseeking determination for long term governance, roles and 
responsibilities of a management entity;
    <bullet> Lassure a commitment to stakeholder involvement
    Awareness of the Shoals cultural heritage has made great strides 
over the past decade. That awareness also has identified new challenges 
in the global economy which must be addressed to remain competitive and 
to sustain growth in a manner that protects and celebrates its own 
unique history and sense of place.
    Shoals CultureNet is a community-driven regional initiative to 
support quality of life strategies for enlightened and effective 
economic development policies which incorporate, acknowledge, and 
foster our cultural heritage. Its objectives include work to:
    <bullet> LUnderstand and protect basic core values of site & 
community
    <bullet> LCarry out quality development strategies
    <bullet> LEnsure authenticity of presentation
    <bullet> LEnsure protection of a sense of place
    <bullet> LEnsure the protection of the resources
    <bullet> LProvide for a high quality visitor experience
    <bullet> LProvide for diversification
    <bullet> LBalance costs & benefits
    <bullet> LProvide for shared benefits
    <bullet> LProvide for local control
    In order to document, quantify and identify our cultural resources 
the group undertook a year-long study, partially funded by a grant from 
the National Endowment for the Arts, published in October 2000.
    Specifically, the near term recommendations of CultureNet include:
    1. LReconvene the region-wide conference, ``Muscle Shoals 
Reconsidered,'' to review the successes of the past decade and develop 
a vision for the future. ``Muscle Shoals Reconsidered'' developed a 
regional consensus among the various stakeholders--local governments 
and utilities, business and industry, non-government organizations and 
education. It provided a common progressive agenda for cultural and 
natural resource protection, urban streetscape and landscape design, 
and better coordination among recreation, tourism, and cultural 
activities in the area. ``Muscle Shoals Reconsidered 2002'' is designed 
to revitalize these efforts. (This conference has been funded and 
organized and will take place April 7-8, 2002, partially funded by a 
grant from the National Endowment for the Arts).
    2. LInitiate an economic development regional support program for 
hospitality and orientation related to industrial and business 
recruitment and retirement living.
    3. LProvide continuous liaison and consultations with Rep. Bud 
Cramer's legislative initiative for a Muscle Shoals National Heritage 
Area Study, which was introduced in the 107th Congress for 
authorization and funding in the fiscal year 2003 budget cycle. 
Consultations with the National Park Service, Alabama Historical 
Commission, Alabama Department of Transportation, Alabama Council on 
the Arts, TVA and other interest stakeholders have taken place.
    4. LAdvance the Shoals CultureNet Community Calendar Project in 
partnerships with the Shoals Chamber of Commerce, arts and cultural 
organizations, tourism, historical, business and economic development 
agencies and individuals. Our study identified almost two dozen 
regionally and nationally significant festivals and events which take 
place annually in The Shoals from the production of ``The Miracle 
Worker'' on the grounds of Helen Keller's home, to the W.C. Handy Music 
Festival, to annual commemorations of Native American culture and 
events.
    Recent strides made in the Shoals' cultural development are having 
a great impact even as they often go unnoticed. Consider, for instance, 
a recent study by Cognetics, a highly respected economic development 
research firm based in Cambridge, Massachusetts. Cognetics reported 
that of the 25 rural areas in the U.S. with the strongest increases in 
new young white-collar worker and retiree migration, northern rural 
Alabama ranked first (with the regions surrounding the Shoals--northern 
Mississippi and east and west rural Tennessee--also appearing on the 
top 25 list). We learned from other studies that the principle 
attractions that create these increases are upgraded environmental 
quality, nearby recreation, safety and security, high-quality cultural, 
medical, and education institutions, and reduced living costs and 
taxes.
    While the rate of increase in some indicators in the region, such 
as retail sales and population in-migration, has been dramatic, 
planning, conservation, and facilities to sustain our region's assets 
and to maintain this momentum requires sustained efforts to develop. We 
will seek ways to protect, integrate, and celebrate those cultural, 
heritage and recreational attractions that produce new energy, and 
expand payrolls and spending. These attributes that will make the 
Shoals increasingly competitive in the world economy and to regain its 
identity as a place of notional significance. Franklin Roosevelt called 
the Muscle Shoals region ``the Genesis of a New America.''
    Among its many goals Shoals CultureNet seeks to:
    <bullet> LPreserve important and historic cultural resources of the 
Muscle Shoals region, comprising Lauderdale and Colbert counties and 
relevant communities in Franklin and Lawrence counties. These efforts 
include the identification, acquisition, classification, and 
preservation/documentation of these resources, including historic 
documents and papers, manuscripts, objects, business records, 
advertising, ephemera, film and photography. Our study identified more 
than 100 people who have roots in the Muscle Shoals area who have 
influenced the direction of American life for the past centuries and 
who continue to influence American culture in the new century. In 
Florence alone there are eight historic districts which include 
approximately 450 structures that are on the National Register of 
Historic Places and additional areas/structures which are included in 
the Alabama Register. Additional information will be presented by other 
witnesses focusing on historically significant elements of the National 
Heritage Area Study.
    <bullet> LDevelop programs and cooperative relationships among 
local governments, public-private partnerships, and non-government 
organizations to enhance and promote these cultural resources, 
including cooperation with tourism promotion and business development 
initiatives. Integrate these objectives with curriculum, programs and 
policies. Our study identified almost 200 potential participants in 
both short-term and long-range project development.
    <bullet> LProvide strategies to sustain ongoing operations that 
meet these objectives.
    A study of Muscle Shoals heritage assets and strategies should 
outline a long-range plan and strategy on acquisition, staffing, 
access, sustainability, and links to other organizations and that will 
include governance options, capital and operational funding 
requirements, programming objectives, outreach, roles and 
responsibilities, timeline, and milestones for the project.
    A successful Muscle Shoals National Heritage Area Study should 
include support for and demonstrations of substantial public 
participation in visioning and planning in preparation for a national 
designation. This includes recognition and acceptance of the salient 
themes of the study, which, prospectively, may include regional and 
related Alabama and Southern studies and narrative histories in 
archaeology, music, folklore and folkways, public works and 
agriculture, with each presented within the contextual framework of the 
Tennessee River at Muscle Shoals.
    In addition to these historical studies, this planning process, 
which is ongoing and continuous, seeks to address:
    <bullet> LStrategies for integrative, coherent, and unifying 
decision-making
    <bullet> LClarification of allocation of community resources
    <bullet> LDetermination of governance, roles and responsibilities
    <bullet> LCommitment to partnerships
    <bullet> LOrganizational stability and sustained operations
    The principle assets of the Shoals area have been inventoried and 
are increasingly well-known to those with interests in cultural 
heritage and recreational opportunities in the Southeast. But the 
potential for optimization of these assets is through coalition- 
building, community awareness, planning, and political support to 
advance place-enhancing quality of life strategies with tourism and 
other compatible economic development enterprises. Our strategic 
planning and evaluation has led us to this opportunity to seek National 
Heritage Area Status.
    I urge you to support House Bill 2628 to authorize the Secretary of 
the Interior to study the suitability and feasibility of establishing 
the Muscle Shoals National Heritage Area in Alabama. In the Shoals area 
we have a working group of enthusiastic volunteers, professionals, and 
experts ready to welcome and facilitate National Park Service personnel 
and their colleagues in the conduct of this study.
                                 ______
                                 

    [Attachments to Ms. Gonce's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T7545.002
    
    [GRAPHIC] [TIFF OMITTED] T7545.003
    
    [GRAPHIC] [TIFF OMITTED] T7545.004
    
    [GRAPHIC] [TIFF OMITTED] T7545.005
    
    [GRAPHIC] [TIFF OMITTED] T7545.006
    
    Mr. Radanovich. Mr. Rosenbaum.

STATEMENT OF ALVIN ROSENBAUM, CULTURENET CONSULTANT AND SENIOR 
VISITING SCHOLAR, THE GEORGE WASHINGTON UNIVERSITY, WASHINGTON, 
                        D.C. (H.R. 2628)

    Mr. Rosenbaum. Thank you, Mr. Chairman. I am grateful for 
the opportunity to appear here this morning in support of House 
bill 2628.
    My name is Alvin Rosenbaum. I am a native of Florence, 
Alabama, Muscle Shoals. I have been involved in historic 
preservation issues there for many years. I am the author of a 
book relating to the area called Usonia, published by the 
National Trust for Historic Preservation, and serve as a 
visiting scholar at the National Institute for Tourism Studies 
at the George Washington University.
    I just would like to give you a brief summary of my 
testimony on national significance of the Muscle Shoals 
relating to western expansion, transportation, and national 
defense. I believe that this study will reveal that there are 
some unique qualities about the Muscle Shoals area that provide 
a story that is important to all Americans.
    When George Washington became President, the major focus of 
his work had to do with western expansion and internal 
improvements, but there was a good deal of controversy about 
whether that was a State role or a Federal role. After the War 
of 1812 ended, President Monroe's Secretary of War, John C. 
Calhoun, proposed an American system for internal 
transportation, reorganization of the Army and the extension of 
the western frontier; and in 1820 he urged the Army Corps of 
Engineers to take control of and improve rivers for both 
commercial prosperity and national defense.
    But it was really the Supreme Court in a case in 1824, 
Gibbons versus Ogden, where the controversy relating to this 
Federal role was resolved and really gave to the Federal 
Government authority over the waterways under the commerce 
clause of the Constitution.
    In 1924, that year, as a matter of fact just a few weeks 
after that decision, Secretary Calhoun came before Congress in 
his annual report and declared that building a canal at Muscle 
Shoals is one of the three great works most important for the 
improvement of transportation in the United States. Congress 
responded by a bill, the General Survey Act of 1824, that 
authorized the President to direct the execution of surveys and 
plans and estimates for internal improvements of national 
importance.
    As a priority, Calhoun forthwith sent the Army Corps of 
Engineers to study navigation at Muscle Shoals for national 
defense. He sent Simon Bernard, who was Napoleon's chief 
engineer and had come to the United States with a 
recommendation from Lafayette to become an army engineer 
officer. General Bernard proposed the building of a canal at 
Muscle Shoals, and Congress deeded 400,000 acres of public land 
to sell to pay for that construction.
    Along with the canal, the first railroad west of the 
Alleghenies, the Tuscumbia Railroad, was constructed. Then, 
after the Civil War, Captain George Washington Goethals came to 
work on the project and designed the largest liftlock in the 
United States. The canal opened in 1911.
    Goethals actually went on to design the Panama Canal and 
become its first commissioner.
    Then a few years after that the Wilson Dam was built, which 
was the world's largest masonry structure at the time, became a 
national historic landmark and has had extensive study by the 
Historic American Engineering Record.
    My own family came to the Shoals during the construction of 
Wilson Dam, opened the first theatre there for Vaudeville and 
movies, and my grandfather was part of the formation of a rich 
and distinctive cultural heritage in Muscle Shoals. Dred Scott 
is from the area; Joe Wheeler; as we talked about, Helen Keller 
and W.C. Handy.
    I am grateful for this opportunity to appear before you, 
and I request that my complete testimony be entered into the 
record of this Committee. Thank you very much.
    Mr. Radanovich. It certainly will, and I appreciate the 
testimony.
    [The prepared statement of Mr. Rosenbaum follows:]

 Statement of Alvin Rosenbaum, Senior Visiting Scholar, International 
Institute for Tourism Studies, The George Washington University School 
                   of Business and Public Management

    Mr. Chairman, I am grateful for the opportunity to appear before 
the Committee on Resources, Subcommittee on National Parks, Recreation 
and Public Lands in support of House Bill 2628 to authorize the 
Secretary of the Interior to study the suitability and feasibility of 
establishing the Muscle Shoals National Heritage Area in Alabama.
    My name is Alvin Rosenbaum and I am a native of Florence, in the 
Muscle Shoals area of Alabama, and have been involved with historic 
preservation issues there for many years. I am the author of a book 
relating to the area, Usonia, published by the National Trust for 
Historic Preservation (1993) and serve as a visiting scholar at the 
International Institute for Tourism Studies, The George Washington 
University.
    I wish to thank historians at the Army Corps of Engineers, and, 
most particularly, Dr. Leland Johnson, author of Engineers on the Twin 
Rivers (Nashville:1978), for his assistance in preparing this testimony 
relating to the Muscle Shoals on the Tennessee River.
    Citizens from the Muscle Shoals region's communities have a long 
tradition of cooperation and partnership in protecting and presenting 
their cultural heritage. Permit this brief summary of the setting and 
circumstances of Muscle Shoals that have contributed to significant 
events in America's history.
    While the major points of my testimony today focus on Tennessee 
River waterway improvements at Colbert and Lauderdale counties, the 
Muscle Shoals story also extends into Lawrence County to east and into 
Franklin County to the south., and the surrounding countryside into 
Northeastern Mississippi and Southwestern Tennessee.
    1. LThroughout the Muscle Shoals region's first 200 years of 
settlement, the theme of improvements has been one of benefit to the 
entire Tennessee River Valley. An objective was always the ability for 
goods and people to travel freely the full length of the river and have 
access to the world's markets through New Orleans and domestic markets 
in Pittsburgh, St. Louis and Memphis. Muscle Shoals became important in 
the American System of internal improvements as it was first imagined 
by George Washington and advanced by Alexander Hamilton and Albert 
Gallatin.
    2. LThe landfall at Muscle Shoals on the Tennessee River drops the 
distance of Niagara Falls, but the drop is not vertical. Instead it 
cascades down a thirty-mile-long inclined plane, miles of whitewater 
rapids requiring so much exertion to pass with paddles and oars that 
the pioneers called them MUSCLE Shoals. Muscle Shoals is the collective 
place name for a series of three shoals: Big Muscle, Little Muscle, and 
Elk River Shoals.
    3. LThe Muscle Shoals so obstructed the Tennessee River that it 
split pioneer settlement and commerce; boats could not pass across the 
shoals between the upper and lower river sections. This drew federal 
attention as early as Thomas Jefferson's administration, when the 
Secretary of Treasury Albert Gallatin recommended that the United 
States build a canal to carry boats past the Muscle Shoals.
    4. LThe great 18th century wilderness trail, the Natchez Trace, 
crosses the Muscle Shoals at Waterloo. In the early 19th century, the 
Jackson Military Road was built and passed through what is now Florence 
and Russellville, shortening the distance from Nashville to the Port of 
New Orleans by 200 miles. A hundred years later it was a national 
highway paved from Chicago to Florence.
    5. LBut before improved highways and railroads, the U. S. Army 
relied on rivers for troop transport and logistics. Secretary of War 
John Calhoun in 1820 urged that the U. S. Army Corps of Engineers take 
control of and improve rivers for both commercial prosperity and 
national defense. ``It is in a state of war,'' Calhoun argued, ``when a 
nation is compelled to put all of its resources in men, money, skill, 
and devotion to country into requisition, that its Government realizes 
in its security the beneficial effects from a people made prosperous 
and happy by a wise direction of its resources in peace.'' Calhoun sent 
the Army Engineers to study the improvement of navigation at Muscle 
Shoals for national defense.
    6. LGeneral Simon Bernard made the first survey of Muscle Shoals in 
1827. Formerly Napoleon's chief engineer, Bernard fled to the United 
States after the Battle of Waterloo with a recommendation from 
Lafayette that he be made an Army Engineer officer.
    7. LWhen Gen. Bernard proposed building a canal bypassing Muscle 
Shoals, Congress gave the State of Alabama 400,000 acres of public land 
to sell, with the receipts funding construction of the Muscle Shoals 
canal.
    8. LAlabama built a canal around Big Muscle Shoals from 1830-1837 
that was 12 miles long, 60 feet wide, 6 feet deep, with 17 locks (120 
by 32 feet). Funding was exhausted, however, before Alabama built 
canals around the Little Muscle and Elk River shoals to permit the 
passage of boats entirely around the shoals. It became necessary 
therefore to build the first railroad west of the Allegheny Mountains--
Tuscumbia Railroad--around Muscle Shoals in 1835 to portage boat 
cargoes past the obstructions.
    9. LWith the canal left incomplete, the Muscle Shoals posed a major 
impediment to defense during the Civil War. Navy gunboats could not 
ascend the shoals to patrol the Upper Tennessee River, leaving the 
Union Army to Confederate mercy at the Battle of Chickamauga and Siege 
of Chattanooga. Confederate cavalry forded the Tennessee River at 
Muscle Shoals to attack north into Tennessee. This forced the Union 
Army to construct its own fleet of gunboats upstream of Muscle Shoals 
to patrol the river and supply the troops under siege at Chattanooga. 
At Florence, William Tecumseh Sherman uttered his famous words, ``War 
is hell!''
    10. LHeeding the war's lessons, Congress in 1872 funded surveys and 
construction of a canal bypassing Muscle Shoals. There, Captain George 
Washington Goethals completed the 16-mile-long canal with 11 locks, the 
longest steamboat canal in the world, and in 1890, also designing canal 
locks with the highest lift in the world at Riverton, Alabama. 
Commanding the Engineer District at Florence, Alabama, was Goethals' 
principal training for managing the Panama Canal's construction.
    11. LThe canal served as an interstate defense highway for commerce 
until the First World War, when German submarines threatened to sink 
ships bringing imported nitrates for munitions to the United States. 
Congress, in the National Defense Act of 1916, ordered the Corps of 
Engineers to build Wilson Locks and Dam, named for Woodrow Wilson, to 
generate hydroelectric power to make nitrates for weapons.
    12. LSupport for Wilson Dam was gained from Wilson's isolationist 
Secretary of State, William Jennings Bryan, and the American Farm 
Bureau through an understanding that after the war the nitrates 
production would be used for fertilizer for agriculture.
    13. LIn 1918 the Corps of Engineers began construction of Wilson 
Locks and Dam to submerge the Muscle Shoals, opening the Upper 
Tennessee River to navigation while also generating electric power for 
two munitions plants built at Muscle Shoals. The construction of Wilson 
Locks and Dam continued after the First World War until it was 
completed in 1927. Built for national defense, Wilson Locks and Dam was 
the first federal project for hydroelectric production, and it was 
perhaps the largest dam in the world at its completion.
    14. LWhen president-elect Franklin Roosevelt visited Wilson Dam and 
the Muscle Shoals in 1933, he said it inspired his concept of creating 
a ``Tennessee Valley Authority to develop the entire river basin for 
hydroelectric power production and allied purposes,'' calling Muscle 
Shoals ``the Genesis of a new America.'' TVA took control of the 
Tennessee River and its Muscle Shoals in 1933 and moved swiftly ahead 
with river and resource development.
    15. LAt the onset of the Second World War, President Roosevelt and 
Congress authorized the rushed construction of more power dams by TVA 
to generate electric power for national defense. The emergency need was 
to produce aluminum for military aircraft and to power the huge nuclear 
separation plants at Oak Ridge. Thus the water power at Muscle Shoals 
and on the Tennessee River made significant contributions to defense of 
the nation.
    16. LAdditional demands for hydroelectric power, especially at the 
Oak Ridge and Paducah nuclear separation plants, resulted in the urgent 
completion of all dams on the Tennessee River along with steam electric 
plants for national defense during the Cold War. The locks and dams on 
the Tennessee and at Muscle Shoals not only produced vital power, they 
also afforded economical transport of coal and strategic materials for 
national defense, contributing to successful conclusion of the 
international Cold War.
    17. LPromoting economic prosperity and national defense, the Muscle 
Shoals developments had key roles in both commercial-industrial and 
strategic-military developments throughout American history. The Muscle 
Shoals rationale that prosperous people constitute the first line of 
national defense was tested and proven many times.
    The Muscle Shoals region today co-joins a number of National Park 
Service units and projects, including the Trail of Tears National 
Historic Trail (Southern route); the Natchez Trace National Scenic 
Trail; the Revolutionary War and War of 1812 Historic Preservation 
Study; and the subject of numerous Historic American Building Survey 
projects in 1935-36 and Historic American Engineering Record projects 
at Wilson Dam in 1994-6. Also included in the region is the Corinth 
Unit of the Shiloh National Military Park. The region has more than a 
dozen National Register districts and hundreds of buildings on the 
National Register of Historic Places.
    Muscle Shoals regional identity has evolved from the related 
traditions of its river culture. The legacy of Muscle Shoals extends to 
significant episodes in the lives of many other great American figures 
from Andrew Jackson and John Coffee, Henry Ford, Thomas Edison, and 
Frank Lloyd Wright. It has been home to American Farm Bureau president 
Edward O'Neal III, and five Alabama Governors.
    Henry Ford's 1921 utopian plan for Muscle Shoals, his ``75 Mile 
City,'' was the inspiration for Frank Lloyd Wright's regional plan for 
America, Broadacre City. The landfall at Muscle Shoals has served as a 
fulcrum for two centuries of public works planning and development, 
providing a framework for regional watershed planning in America.
    The Muscle Shoals' location as a gateway and an East-West link has 
produced a rich history that has spawned regional expression in music, 
home-crafts, domestic architecture, and common traditions that have 
flowed to both banks of the Tennessee River, not only creating a 
regional identity but also highlighting the distinctiveness of each of 
the region's communities.
    Significant contributions to the history and legacy of the 20th 
century in America have been made by Muscle Shoals sons and daughters, 
including Helen Keller and W. C. Handy, Pulitzer Prize winning author 
T.S. Stribling, Olympic athlete Jesse Owens, and educator Maud Lindsay. 
Others also have roots in the Shoals' communities, including well-known 
actors, writers, and playwrights, artists and photographers, 
congressmen, legislators, and jurists.
    Florence, Alabama at the Muscle Shoals is the birthplace of W. C. 
Handy (1873-1958), composer, performer, teacher, and historian of the 
American Jazz tradition. While Handy is best known for his St. Louis 
Blues, his major contribution was in laying the foundation for a 
musical style that gave rise to America's commercial entertainment 
industry, spanning recordings, broadcasting, film, and live 
performance.
    The contemporary expression of W. C. Handy's legacy, according to 
music historian Peter Guralnick, emerged in the 1950s ``[to accompany] 
the Civil Rights Movement almost step by step, its success directly 
reflecting the strides that integration was making, its popularity 
almost a mirror of the social changes taking place.'' (Sweet Soul 
Music, 1986, New York, p. 2). Florence native Sam Philips founded Sun 
Records in Memphis, launching Elvis Presley's career in the 1950s; by 
the 1970s, the action moved back to the Shoals, where nearly every top 
recording star came to record, from Muscle Shoals locals Arthur 
Alexander and Percy Sledge, Wilson Pickett to the Allman Brothers, the 
Rolling Stones to Cher, Simon and Garfunkel to Willie Nelson. Also of 
particular interest is the contributions of the region's native sons to 
American music history that influenced contemporary music with the 
contributions of Sam Phillips, Buddy Killen, and James D. Vaughn, world 
famous studios and other local personalities.
    The Muscle Shoals region continues to recognize its past as it 
prepares for its future. For example, the City of Florence has 
undertaken a long-term waterfront improvement program, including an 
outdoor amphitheatre, biking and hiking trails, a marina, public 
riverside walks and spaces, and the restoration of a Frank Lloyd Wright 
house. A new bridge crossing the river is nearing completion with 
intermodal connectors to road and trail systems in Colbert County and 
through the TVA Reservation, also providing linkages to the Natchez 
Trace, Trail of Tears interpretation nodes, Civil War sites, and other 
major cultural assets along the Tennessee River.
    A Muscle Shoals National Heritage Area Study is an initiative to 
seek ways and strategies to tie these assets together, to better 
protect natural and cultural resources of national significance while 
making them available to both residents and visitors, to develop and 
burnish a coherent regional identity, and to develop opportunities for 
region-wide interpretation of its diverse populations and rich cultural 
history.
    Prospectively, the components of a Muscle Shoals National Heritage 
Area Study may contain:
    <bullet> LExecutive summary and national significance justification
    <bullet> LA physical description of the Muscle Shoals region and 
origins of settlement
    <bullet> LThemed narratives
    <bullet> LA synthesis of the themed narratives
    <bullet> LHistoric resources inventory and analysis
    <bullet> LSummary of HABS (1935-36) and HAER (1994-96) studies
    <bullet> LA map of proposed boundaries
    In considering a project focus, team, and strategy for a study, 
prospectively, themes may revolve around the Tennessee River at Muscle 
Shoals and include narrative histories relating to archaeology, music, 
public works, and agriculture. The faculties at the University of North 
Alabama at Florence, Dr. Leland Johnson, an historian for the Nashville 
District, US Army Corps of Engineers, and the Public History Department 
at Middle Tennessee State University have been consulted and stand 
ready to provide substantive contributions to the necessary historical 
documentation for this study. Other sources that may be consulted 
include the TVA archives and historic preservation office at Norris, 
TN; Goethals Papers, Library of Congress; National Coordinating Council 
for the Promotion of History; Franklin Delano Roosevelt Library, Hyde 
Park, NY; Society for the History of the Federal Government; Public 
Works Historical Society, National New Deal Preservation Association.
    In addition, a number of other expert resources for important sub-
themes have been identified:
    Archaeology--Alabama Historical Commission, University of Alabama, 
and the State of Alabama Archaeologist have recommendations relating to 
pre-historic and Native American cultures in Northwest Alabama.
    Music--The 20th century American music theme will require a 
thoughtful narrative history built around the W. C. Handy story and 
into his influences on contemporary music. Dr. Tom Wolfe, Chair, Jazz 
Studies, University of Alabama and Sheffield native Willie Ruff, Yale 
University Department of Music, may be consulted. The Alabama State 
Council on the Arts is another valuable resource. In the Shoals, 
journalists Terry Pace, Robert Palmer, William Jarnigan and others have 
expert knowledge of the area's music heritage. Valuable resources in 
the areas include the Alabama Music Hall of Fame, Muscle Shoals Music 
Association, and the Music Preservation Society.
    Agriculture--for example, the Alabama Historical Commission is 
contemplating a state heritage area in North Alabama, anchored by their 
two properties, Belle Mont in Tuscumbia and the Wheeler Plantation, 
Pond Spring, in Courtland.
    Legislation to authorize a study should contain justification of 
the national significance of the Muscle Shoals region, including themes 
receiving wide support from the community. This study assumes a certain 
urgency in the face of substantial development pressures and an 
increasing recognition by the public, political leadership, and 
business that an integrated regional strategy for resource protection 
and interpretation is essential to their communities' well-being.
    I urge you to support House Bill 2628 to authorize the Secretary of 
the Interior to study the suitability and feasibility of establishing 
the Muscle Shoals National Heritage Area in Alabama. This designation 
will provide the communities of the Muscle Shoals region a mechanism 
for planning, and stewardship to conserve and preserve this nationally 
significant landscape, to encourage new partnerships, and to help 
return the Tennessee River and its rich cultural and natural resources 
to its rightful place in Alabama's and our nation's history.
                                 ______
                                 
    Mr. Radanovich. To speak on H.R. 2643, Mr. Borlaug. I hope 
I got your name right.
    Mr. Borlaug. That is right.
    Mr. Radanovich. I have Radanovich. So I can screw up other 
people's names, too, because mine gets messed up all the time, 
too.

 STATEMENT OF DAVID BORLAUG, PRESIDENT OF THE NATIONAL COUNCIL 
OF THE LEWIS & CLARK BICENTENNIAL, WASHBURN, NORTH DAKOTA (H.R. 
                             2643)

    Mr. Borlaug. I am President of the National Council of the 
Lewis & Clark Bicentennial as well as President of the North 
Dakota Lewis & Clark Bicentennial Foundation, which operates 
the Fort Mandan replica.
    In both of my positions I have the opportunity to travel 
all across America, promoting the upcoming Bicentennial 
commemoration of the Lewis & Clark Expedition of 1803 to 1806. 
Throughout my travels and in all of my other activities 
relative to Lewis & Clark, from the front porch of Thomas 
Jefferson's Monticello, to the Arch at St. Louis, to Fort 
Mandan, to the Great Falls of Montana and on to the Pacific, 
the great value of the Fort Clatsop National Memorial is very 
apparent all across America.
    The story of the Lewis & Clark expedition is a uniquely 
American story that binds that front porch of Monticello with 
the gates of Fort Clatsop. Here was the culmination of 
Jefferson's dream, although it may have seemed more a nightmare 
to the captains as they faced incredible obstacles in their 
quest for a water passageway that didn't exist and then made do 
with the paths and rivers that they did confront. The members 
of the original Corps of Discovery were among the Nation's 
first patriots, ``with courage undaunted,'' in the words of 
Jefferson.
    Noted historian and author Donald Jackson once said that 
every generation rediscovers Lewis & Clark. He is right, and 
this generation's interest is magnified by the power of a 
bicentennial commemoration which kicks off less than a year 
from now at Monticello.
    Millions of Americans and visitors from all across the 
country and around the world are already doing what Lewis & 
Clark did, having their own voyages of discovery. Where I work, 
at Fort Mandan, in a small town in North Dakota, we saw 
visitation rise 27 percent this past year, with visitors from 
all 50 states, every Canadian province, and over 50 foreign 
countries. To my constant surprise, many of those visitors are 
on a Lewis & Clark adventure, all the way to Fort Clatsop; and 
all of this is happening in what has been a flat to down year 
in tourism across most of the country. Lewis & Clark is making 
a difference in communities from Washburn, North Dakota, to 
Astoria, Oregon, and McGowan, Washington.
    Those of us on the Lewis & Clark Trail have this incredible 
spotlight shining on us right now, and the benefits of this 
illumination will go on far beyond the Bicentennial. That is 
the beauty of heritage tourism. After visitors come and go, 
they tell their friends, their neighbors, their relatives back 
home what a wonderful experience they had, and more visitors do 
come in their wake.
    With this spotlight, however, comes great opportunity, to 
be sure. Opportunity in the form of economic development, 
especially in areas where traditional sources of employment and 
commerce are dwindling. An opportunity to tell our uniquely 
American story with its multicultural components. Within those 
components, the educational opportunities are tremendous and 
must be exploited to great advantage for students and visitors 
of all ages.
    With this opportunity comes a great responsibility, 
however. Fort Clatsop and other major attractions on the Lewis 
& Clark Trail must be ready for this increase in visitation. We 
must be ready to meet, indeed to exceed, the expectations of 
visitors have when they arrive. This bicentennial is a great 
national commemoration. Already, the National Council is 
working with major media outlets, and there will be significant 
national media attention on the Lewis & Clark Trail beginning 
this spring, months before the launch of the Bicentennial.
    Your Committee today has the opportunity to ensure that 
millions of future visitors to the Fort Clatsop area in both 
Oregon and Washington will have their expectations met and will 
fully enjoy the spirit of rediscovery that they are seeking.
    As National President of the Lewis & Clark Bicentennial and 
as President of a Foundation devoted to telling this story in 
North Dakota, I encourage you to support this legislation, to 
increase the boundaries of this great American treasure, to 
preserve it, to allow it to be nurtured by the local interests 
who, working hand in hand with the National Park Service, have 
done such a remarkable job for so many years. Their greatest 
achievements still lie ahead of them.
    I thank you for your consideration and look forward to 
answering any questions you may have.
    Mr. Radanovich. Thank you, sir. I appreciate the testimony.
    [The prepared statement of Mr. Borlaug follows:]

Statement of David Borlaug, President, National Council of the Lewis & 
                           Clark Bicentennial

    Mr. Chairman and honorable Members, my name is David Borlaug, and I 
am President of the National Council of the Lewis & Clark Bicentennial; 
as well as President of the North Dakota Lewis & Clark Bicentennial 
Foundation, which operates the Fort Mandan replica.
    In both of my positions, I have the opportunity to travel all 
across America, promoting the upcoming Bicentennial commemoration of 
the Lewis & Clark Expedition of 1803-1806.
    Throughout my travels, and in all of my other activities relative 
to the story of Lewis & Clark, from the porch of Thomas Jefferson's 
Monticello, to the Arch at St. Louis, to Fort Mandan, the Great Falls 
of Montana and on to the Pacific, the value of the Fort Clatsop 
National Memorial is obvious, all across America.
    The story of the Lewis & Clark Expedition is a uniquely American 
story, that binds that front porch of Monticello with the gates of Fort 
Clatsop.
    Here was the culmination of Jefferson's dream, although it may have 
seemed more a nightmare to the Captains, as they faced incredible 
obstacles in their quest for a water passageway that didn't exist, and 
then made do with the paths and rivers that they confronted. The 
members of the original Corps of Discovery were among this nation's 
first patriots, ``with courage undaunted,'' in the words of Jefferson.
    Noted historian and author Donald Jackson once said, ``every 
generation re-discovers Lewis & Clark.'' He's right, and this 
generation's interest is magnified by the power of a Bicentennial 
commemoration, which kicks off less than a year from now, at 
Monticello.
    Millions of Americans and visitors from around the world are 
already doing what Lewis & Clark did, on their own ``voyages of 
discovery'' across the Lewis & Clark Trail. Where I work, at Fort 
Mandan, in a small town in North Dakota, we saw visitation rise 27 
percent this past year, with visitors from all 50 states, every 
Canadian province, and over 50 foreign countries. And, to my constant 
surprise, many of those visitors are on a Lewis & Clark adventure, all 
the way to Fort Clatsop. And, all this is happening in what has been a 
flat to down year for tourism across most of the country. Lewis & Clark 
is making a difference in communities, from Washburn, ND to Astoria, OR 
and McGowan, WA.
    Those of us on the Lewis & Clark Trail have this incredible 
spotlight shining on us right now, and the benefits of this 
illumination will go on, far beyond the Bicentennial. That is the 
beauty of heritage tourism. After visitors come and go, they tell their 
friends, neighbors and relatives back home what a wonderful experience 
they had, and more visitors come in their wake.
    With this spotlight, comes great opportunity, to be sure. 
Opportunity in the form of economic development, especially in areas 
where traditional sources of employment and commerce are dwindling. And 
opportunity to tell our uniquely American story, with its multi-
cultural components. Within those components, the educational 
opportunities are tremendous, and must be exploited to great advantage 
for students and visitors of all ages.
    With this opportunity, comes a great responsibility, however. Fort 
Clatsop, and other major attractions on the Lewis & Clark Trail must be 
ready for this increase in visitation. We must be ready to meet, indeed 
to exceed, the expectations that visitors have when they arrive. This 
Bicentennial is a great national commemoration. Already, the National 
Council is working with major media outlets, and there will be 
significant national media attention on the Lewis & Clark Trail, 
beginning this spring, months before the launch of the Bicentennial.
    Your committee today, has the opportunity to ensure that millions 
of future visitors to the Fort Clatsop area, in both Oregon and 
Washington, will have their expectations met, and will fully enjoy the 
spirit of re-discovery that they are seeking.
    As National President of the Lewis & Clark Bicentennial, and as the 
President of a Foundation devoted to telling this story in North 
Dakota, I encourage you to support this legislation, to increase the 
boundaries of this great American treasure, to preserve it, to allow it 
to be nurtured by the local interests, who working hand in hand with 
the National Park Service, have done such a remarkable job for so many 
years. Their greatest achievements still lie before them.
    Thank you for your consideration, and I look forward to answering 
any questions you may have.
                                 ______
                                 
    Mr. Radanovich. Now we will move on to Rex Scouten, who is 
the former White House Curator, here to speak on the resolution 
offered by Ms. Davis. Welcome, sir.

STATEMENT OF REX SCOUTEN, FORMER WHITE HOUSE CURATOR, FAIRFAX, 
                     VIRGINIA (H.RES. 261)

    Mr. Scouten. Thank you very much.
    Over the years and yet today people question why sandstone 
as a building material. Sandstone has served the White House 
for over 200 years, and I believe with proper care and 
maintenance it will serve for many, many more years.
    Construction of the White House walls were completed in 
1798. Sixteen years later, in 1814, fires set by British Armed 
Forces destroyed the entire building except for the exterior 
walls.
    In the late 1940's a structural survey team recommended 
that the White House undergo a complete structural renovation, 
even suggesting that the original exterior walls be destroyed 
and that a more durable material be used and rebuilt. There 
were many who agreed with this, but President Truman, frankly, 
did not. President Truman said that he would not consider 
destroying those original walls nor any other original material 
that could possibly be reused.
    During the 1970's it was noted that the paint on the 
exterior walls was not adhering properly, and again many people 
felt it was the fault of the stone. But with President Jimmy 
Carter's approval, the project of removal of the paint from the 
exterior walls for the first time in the history of the House 
was started. The walls had been given a coat of whitewash when 
it was first erected in 1789 and had been repainted and had 
been repainted off and on during the next hundred years. For 
many years in this past century it was painted each 
Presidential election year.
    The paint removal project identified 43 coats of paint. The 
coats represented many different formulas, some of which 
obviously were not compatible with the others. Also, during 
that project we called on the expertise of the National Bureau 
of Standards and a local paint manufacturing company to develop 
a formula specifically for sandstone. The sandstone paint which 
was developed requires repainting about every 8 years, compared 
with every 4 years in the past. The result obviously is a 
substantial saving to the taxpayers as well as a great amount 
of less inconvenience to the First Family.
    When the paint had been completely removed from the walls, 
relatively little stone deterioration was detected. A great 
deal of damage was the result of poor stone repair procedures 
that actually caused more damage than good.
    Permian sandstone has proved to be an excellent choice, I 
think, a stone that was recommended by President George 
Washington.
    I deeply appreciate this opportunity. Thank you very much.
    Mr. Radanovich. Thank you very much, Mr. Scouten.
    [The prepared statement of Mr. Scouten follows:]

Statement of Rex Scouten, Former White House Curator, Fairfax, Virginia

    Mr. Chairman and members of the Committee, I would like to give 
some history of Government Island stone at the White House as well as 
my personal experiences.
    Over the years many have considered the sandstone from the Aquia 
area to be an inferior building material. However, Government Island 
stone has served the White House well for over 200 years and I believe 
with proper care and maintenance will continue to serve for many, many 
years in the future.
    Construction of the White House walls was completed in 1798. In 
1814 a fire set by British Armed Forces destroyed the roof and house 
interior, only the four exterior sandstone walls remained.
    In the late 1940's a structural survey teams recommended that the 
White House undergo a complete structural renovation even suggesting 
that the original exterior walls should be destroyed and that a more 
``durable'' material be selected. There were many who agreed with the 
recommendation, however, President Harry Truman did not.
    All Americans owe a debt of gratitude to President Truman who said 
that he would not consider destroying the walls or any other original 
material that could possibly be reused.
    During the late 1970's it was noted that the paint on the exterior 
walls was not adhering properly some felt it was the fault of the 
Government Island sandstone. Therefore, with President Jimmy Carter's 
approval, a project to remove all of the paint from the exterior walls-
for the first time in the history of the House. The walls had been 
given a coat of white wash in 1789 and had been repainted off and on 
during the next 100 years. Then for many years it had been painted each 
Presidential election year.
    The paint removal project identified forty-three coats of paint. 
The coats represented many different formulas some of which were not 
compatible with the others. During the project the expertise of a paint 
manufacturer and the National Bureau of Standards were called to 
develop a paint formula specifically for sandstone. The sandstone paint 
that was developed requires repainting every eight years rather than 
each four years. This resulted in a substantial savings as well as less 
inconvenience to the First Family.
    When the paint had been completely removed from the walls 
relatively little stone deterioration was detected. A great deal of 
damage was the result of poor stone repair procedures that actually 
caused far more damage than good.
    Government Island sandstone has proven to be an excellent choice 
for the construction of the White House-a stone that was recommended by 
President George Washington.
    I deeply appreciate the opportunity to appear before this Committee 
and to urge support of House Resolution 261.
                                 ______
                                 
    Mr. Radanovich. Welcome, Ms. Conner.

 STATEMENT OF JANE CONNER, RETIRED TEACHER AND STAFFORD COUNTY 
           HISTORIAN, STAFFORD, VIRGINIA (H.RES. 261)

    Ms. Conner. Thank you.
    Mr. Chairman, Committee members, it is an honor to appear 
before you on behalf of the resolution, and I thank you and 
Congresswoman Davis for recognizing Government Island for its 
unique contribution to our country. To think that this small 
little island contributed the stone to make the two most 
important buildings showing freedom and liberty around the 
world is just sort of amazing.
    The stone that is on the island, as Mr. Scouten said, is a 
sandstone, but the Founding Fathers always called it either 
freestone, because it could be carved freely in any direction 
without breaking, or else they referred to it as Aquia stone, 
because it comes from Stafford County and there is a little 
creek in Stafford County called Aquia Creek and the island is 
there.
    The island's quarries were operational a hundred years 
before Pierre L'Enfant purchased the island. If you look at 
colonial homes and Federal period homes, you can see an Aquia 
stone there, usually as architectural trim. If you go to 
Yorktown, where Congresswoman Davis is from, you can see it in 
Thomas Nelson's house--he was one of the signers of the 
Declaration of Independence--and Cape Henry lighthouse in 
Virginia Beach, Virginia.
    In Northern Virginia it was used as architectural trim in 
many historic churches and Aquia Church, which is quite close 
to the quarry in Stafford County, and it is in Pohick Church, 
the church of George Mason. Also in George Mason's home, 
Gunston Hall, and Christ Church in Alexandria, the church of 
George Washington and Robert E. Lee.
    Now George Washington was a Stafford boy. He lived at Ferry 
Farm in Stafford County from the age of 6 to the age of 20. So 
he was very familiar with the quarries of Government Island, 
and he requested his men to go down to get stone for his steps 
at Mount Vernon at Government Island.
    After the revolutionary war, Aquia stone was selected for 
the boundary markers to mark our new Federal city, the District 
of Columbia. It was a 10-mile-square area, and it was marked by 
40 boundary markers which were Aquia stone. Thirty of them are 
still standing today, and so it is no wonder that the 
commissioners selected the sandstone at Government Island to 
create these two important buildings.
    Pierre L'Enfant purchased the island in 1791. At that time, 
the slaves were working from sunrise to sunset on getting 
enough stone.
    By 1800, the White House was complete, and the first 
Section of the U.S. Capitol was complete, too, the north wing.
    By 1824, most of the Capitol at that time was complete, the 
old north wing, the south wing and the rotunda; and Benjamin 
Henry Latrobe was in charge of construction of the Capitol. He 
said he wanted to put a portico or a porch on the east side of 
the Capitol, and there would be 24 columns. These columns would 
be single shafts of stone. Unlike the mall side, where those 
columns are like drums of stone, one placed upon the other, 
these would be single shafts of stone.
    Aquia stone is extremely heavy. One cubic foot weighs 120 
pounds. So the shafts of stone for the 24 columns on the east 
front were anywhere between 24 and 40 feet long and 9 and a 
half feet thick. They had to go on only one boat taking them 
from the island down Aquia Creek in Stafford, Virginia, and 
then going up the Potomac up here to the Capitol site.
    They said that--at that same time, it was the 4th of July, 
and the Washington Gazette said that the Masons wanted to join 
in a parade that was taking place at that time. The Washington 
Gazette said that President Monroe's carriage was followed by 
those of Secretary Adams and Mr. Secretary Calhoun. There was a 
working printing press on there, and they would make copies of 
the Declaration of Independence and pass it out to the 
spectators.
    But they said that the thing that delighted everyone was 
the float with the stonemasons because they had one of the 
large Corinthian caps that was going to be on the top of the 
column and that delighted everyone. Now, congressmen of that 
day would get all excited when they would hear that a ship was 
arriving from Government Island in Stafford County. So they 
would go out--and there was a carriage that was especially 
built just for the shafts of stone, and only one shaft would be 
on the carriage. There would be a hundred ropes, and 
congressmen would get so excited that they would go out and 
grab ahold of the ropes and pull it to the site here at the 
Capitol.
    Anne Newport Royall, America's first woman journalist, 
wrote about one shaft's arrival: ``members of Congress will 
turn out in the evening to assist in pulling the big wagon, as 
it is called, and join in all pleasantry to which the novelty 
of the thing gives rise. When the column arrives at the 
Capitol, it is cheered by loud huzzas from a hundred voices.''
    So we in Stafford County are very proud of Government 
Island and its important stone. For it is this small island 
that contributed the birthstone of the United States Capitol 
and the White House. Hopefully, its rich history can be shared 
with all the Nation. I urge you to recognize the historical 
significance by the approval of resolution 261.
    Thank you.
    [The prepared statement of Ms. Conner follows:]

     Statement of Jane Conner, Retired Teacher and Stafford County 
                  Historian, Stafford County, Virginia

    Mr. Chairman, Ranking Member, and Members of the Committee, it is 
an honor to be able to testify before you on behalf of the resolution 
recognizing Government Island for its unique contribution to our 
country. The mere fact that it exists today in its natural state is 
more a product of good fortune than careful planning. Yet, due to the 
wisdom and generosity of our Stafford County government, we were able 
to purchase this national treasure. This unique island produced the 
stone which helped create the U.S. Capitol and White House, our two 
greatest public buildings and the two greatest symbols of liberty and 
freedom in the world.
    Yet more than buildings, the island embodies the story of the 
American people in our earliest years. American Indians lived on its 
shores; British settlers, both Catholic and Protestant, organized its 
quarries; immigrants and American slaves, and freemen quarried its 
heavy stone and transported it great distances over land and water. 
This small island's sandstone, called Aquia stone or freestone, can be 
found in colonial and federal-period buildings still standing today. 
For example, in Yorktown it can be found in the home of Thomas Nelson, 
signer of the Declaration of Independence, and at historic Cape Henry 
Lighthouse in Virginia Beach, Virginia. In northern Virginia it 
decorates many churches such as Aquia Church, located near the quarry; 
Pohick Church, the church of George Mason; and Christ Church in 
Alexandria, the church of George Washington. Washington, who lived in 
Stafford at Ferry Farm from the age of 6 to the age of 20, was familiar 
with the island quarry. He sent his men down to the island twice to 
obtain stone for his steps at Mount Vernon.
    Government Island and its quarry operated for a century in colonial 
America. After the Revolutionary War, when the District of Columbia was 
being laid out, Aquia stone was selected for the forty boundary 
markers. By the way, there are still over 30 standing today outlining 
the original district. It is no wonder that the Commissioners selected 
the island as the source of our new nation's building material.
    Pierre L'Enfant purchased the island for the United States 
Government in 1791. Immediately, there was much activity on the island 
quarrying the stone for these two important edifices. After the 
completion of the White House in 1800 and the completion of main 
portion of the Capitol, Benjamin Henry Latrobe, who was in charge of 
the Capitol's construction, wished to put on a portico, or porch, with 
24 massive columns topped with Corinthian capitals. Charles Bullfinch, 
who later took over Latrobe's position, discovered that there was 
adequate stone left on Government Island for the creation of the 
columns. They would be made from single shafts, or blocks of stone, 
unlike the columns on the west side of the building. In 1824, while 
slaves were starting to quarry the stone, 70 masons in the D.C. were 
planning to join in a parade to celebrate the Fourth of July. The 
parade was a huge success with President Monroe's carriage followed by 
those of `` Mr. Secretary Adams and Mr. Secretary Calhoun.'' 
(Washington Gazette, July 6, 1824) A working printing press graced one 
float. After copies of the Declaration of Independence were printed 
they were distributed to the spectators. But the float that delighted 
all was that of stone masons working on a large freestone Corinthian 
Capital.
    Congressmen of that day were so excited when the massive shafts of 
stone appeared from Government Island that they would go down to the 
wharf when they heard of one's arrival. Only one shaft could be placed 
on the boat for the trip down Aquia Creek and up the Potomac River, for 
each shaft was from 24 to 40 feet long and about 9 1/2 feet thick. The 
massive blocks were so heavy that horses were not used. Instead a 
special carriage was constructed with one hundred ropes. Congressmen, 
caught up in the moment, grabbed the ropes and pulled the wagon to the 
masons' shed. Anne Newport Royall, America's first woman journalist 
wrote about witnessing one shaft's arrival. ``....members of congress 
will turn out in the evening to assist in pulling ``'the big waggon,'' 
as it is called, and join in all the pleasantry to which the novelty of 
the thing gives rise. When the column arrives at the capitol, it is 
cheered by loud huzzas from a hundred voices.'' (Sketches of History, 
Life, and Manners in the United States, 1826)
    We in Stafford County are very proud of Government Island and its 
important stone. For it is this small island that contributed the 
birthstone of the U.S. Capitol and White House. Hopefully, its rich 
history can be shared with the nation. I urge you to recognize its 
historical significance by the approval of House Resolution 261.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you very much for everybody's 
testimony.
    So where was the stone for the rest of the Capitol when it 
was expanded in the 1860's? Did it not come from Government 
Island?
    Ms. Conner. No, it didn't.
    Mr. Radanovich. Because you can tell the difference in the 
stone.
    Ms. Conner. Yes, you can.
    As a matter of fact, the columns that I just mentioned, 
during the Eisenhower administration they wanted to extend the 
Capitol on the east side, so they took down the columns and 
they duplicated them exactly with--I believe it was Georgian 
marble. I am not too sure about that, but I think it was 
Georgian marble. And for a long while these beautiful columns 
were resting in Rock Creek Park.
    Then, fortunately, I believe it was in 1978, there was a 
woman philanthropist that decided to move them to the National 
Arboretum. So if you ever go there you will see them. They look 
majestic sitting on a little knoll there.
    Mr. Radanovich. Oh, sure. Yes.
    Ms. Conner. So those were the ones that were originally 
there, but that was just a duplication. But the extension was 
completed for the Kentucky inauguration which was on that site 
at that time.
    Mr. Radanovich. A fascinating story. Thank you.
    Jo Ann, do you have any questions you would like to ask?
    Mrs. Davis. I don't have any questions.
    I would just like to thank you, Ms. Conner and Mr. Scouten, 
for coming; and we have the County Administrator here, Mr. 
Simlians, who is here.
    I think Stafford County is very proud of this island, and I 
hope we can pass this resolution.
    Mr. Radanovich. Being from Yosemite, granite is my favorite 
rock, but the sandstone story is pretty--
    Mrs. Davis. Sandstone is beautiful.
    Mr. Radanovich. Thank you very much. I want to thank you 
for your testimony.
    I have no questions. Apparently, the people who are 
sponsoring the legislation don't have any either. So I want to 
thank you for your testimony.
    We have a vote going on now, and with that I am going to 
adjourn this hearing and appreciate everybody's efforts here. 
Thank you very much.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]

                              <greek-d>


</pre></body></html>
